<html>
<title> - [H.A.S.C. No. 112-84]READINESS IN THE AGE OF AUSTERITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-84]

                   READINESS IN THE AGE OF AUSTERITY

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 27, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                      U.S. GOVERNMENT PRINTING OFFICE

  71-455                  WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  





                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Ryan Crumpler, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                    Nicholas Rodman, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, October 27, 2011, Readiness in the Age of Austerity....     1

Appendix:

Thursday, October 27, 2011.......................................    37
                              ----------                              

                       THURSDAY, OCTOBER 27, 2011
                   READINESS IN THE AGE OF AUSTERITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Breedlove, Gen Philip M., Vice Chief of Staff, U.S. Air Force....     8
Chiarelli, GEN Peter W., Vice Chief of Staff, U.S. Army..........     3
Dunford, Gen Joseph F., Jr., Assistant Commandant of the Marine 
  Corps, U.S. Marine Corps.......................................     6
Ferguson, ADM Mark E., III, Vice Chief of Naval Operations, U.S. 
  Navy...........................................................     5

                                APPENDIX

Prepared Statements:

    Breedlove, Gen Philip M......................................    65
    Chiarelli, GEN Peter W.......................................    43
    Dunford, Gen Joseph F., Jr...................................    59
    Ferguson, ADM Mark E., III...................................    54
    Forbes, Hon. J. Randy........................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Courtney.................................................    77
    Ms. Hanabusa.................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    83
    Mrs. Roby....................................................    91
    Mr. Rogers...................................................    90
 
                   READINESS IN THE AGE OF AUSTERITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                        Washington, DC, Thursday, October 27, 2011.
    The subcommittee met, pursuant to call, at 10:04 a.m. in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Gentlemen, please sit down. We are just waiting 
for Ms. Bordallo to get here and as soon as she gets here, we 
will start. Thank you for your patience. So, we are waiting for 
Ms. Bordallo.
    I will just tell everybody what we have been talking about. 
Apparently votes are scheduled around 10:15 today. We are not 
sure exactly when, so we may have to break for some votes and 
come back, but we will be coming back to complete the hearing.
    So please work around us and with us, and as you know, they 
never call us and ask if it is a convenient time to take the 
votes. So they just have to have them, so we will work around 
what we have to do.
    I want to welcome all of our members and our distinguished 
panel of experts to today's hearing, focused on how we maintain 
readiness in an age of austerity. Or more particularly, what is 
the risk to the national defense of our country if we continue 
making some of the cuts to defense we hear being discussed in 
Washington?
    I want to thank our witnesses for being with us this 
morning. And I know several of you had to cancel longstanding 
personal commitments to be with us this morning. I appreciate 
your willingness to testify before this subcommittee once again 
on this most important topic. In the interest of time, because 
we know we could have votes coming any time and we may have to 
recess and do those votes and then come back, because this is 
important and we want to get all of this on the record, I am 
going to dispense with any normal opening remarks.
    Since Ms. Bordallo is not here, we will dispense with her 
remarks and have both of them put in the record. I would like 
to, however, look at a procedural matter that we use in this 
committee, and that is we discussed prior to the hearing that 
we would like to dispense with the 5-minute rule for this 
hearing and depart from regular order, so that members may ask 
questions during the course of the discussion.
    I think this will provide a roundtable type forum and will 
enhance the dialogue on these very important issues. We would 
like to proceed with standard order for members to address the 
witnesses; however, if any member has a question pertinent to 
the matter being discussed at the time, please seek 
acknowledgement and wait to be recognized by the chair.
    We plan to keep questioning to the standard 5 minutes, 
however, I don't want to curtail productive dialogue. I ask 
unanimous consent that for the purposes of this hearing, we 
dispense with the 5-minute rule and proceed as described. 
Without objection, it is so ordered.
    Gentlemen, we are delighted to have you here with us today. 
We have the honor of having General Chiarelli with us, who is 
the Vice Chief of the United States Army. He has been such 
since August 4, 2008. He has commanded at every level from 
platoon to corps. He has commanded the United States European 
Command, the Director of Operations and Readiness and 
Mobilization at headquarters, the Department of the Army.
    We also have Admiral Ferguson, and Admiral, we are 
delighted to have you with us. He is the Vice Chief of Naval 
Operations, Navy Personnel Command. And he is the Chief of 
Legislative Affairs and Chief of Naval Personnel.
    Also General Joseph F. Dunford, Jr. He is the assistant 
commandant of the Marine Corps. General Dunford has gone 
through the U.S. Army Ranger School, Marine Corps Amphibious 
Warfare School and U.S. Army War College. He has a very 
distinguished career and we appreciate the expertise that he 
brings to this panel.
    And last, but certainly not least, is General Breedlove. 
And General, we appreciate you once again being with us. 
General Breedlove is the Vice Chief of Staff of the U.S. Air 
Force. He is a Georgia Tech graduate. And General, we enjoyed, 
as a graduate of the University of Virginia, playing you the 
other week.
    [Laughter.]
    And it may be the one bright spot we will have this year, 
but thanks for your help and cooperation in that. He is also a 
graduate of Arizona State University, where he had his Master 
in Science Degree, and the National War College.
    And without further ado, we want to get right to your 
opening statements. We are pleased to have--the ranking member 
has joined us now.
    We also have with us the chairman of the full committee. I 
know we talked about before you got here with dispensing with 
our opening statements and putting them in the record, because 
they are going to call votes at about 10:15.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 41.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Mr. Chairman, I would just like to welcome 
our witnesses today and also to place my statement into the 
record.
    Mr. Forbes. And we just appreciate your service to this 
committee. And Madeleine and I work as very close partners and 
we have a special relationship. And I just appreciate her help 
with this committee and the great work that she does.
    With that, we are going to do something a little bit 
different today. We are going to put your statements in the 
record, and they have already been made in the record. And as I 
told all of you before, we want you just to tell us the 
importance of what we have. And I am going to tee each of you 
up with a question, but then I want you to expound on it with 
your testimony, anything that you want to say.
    And we will start, General Chiarelli, with you. And as you 
know, we have heard the--we have already had about $465 billion 
to cuts to national defense taking place in the country. Some 
people talk about an additional $600 billion coming. There are 
discussions that that is going to significantly reduce the 
force that we have in the United States Army.
    General, you have been serving for a long time. You have 
served in almost every capacity in the Army. When we talk about 
risk and the risk that these cuts could have, sometimes we talk 
about them in terms of institutions and missions, but it really 
comes down to men. You have seen that historically.
    What have these kinds of cuts done to the risk to your men 
that will serve under you? Would you please address that 
question, and then any other comments you would like for your 
opening statement. And we now turn it over to you.

STATEMENT OF GEN PETER W. CHIARELLI, VICE CHIEF OF STAFF, U.S. 
                              ARMY

    General Chiarelli. Well, Chairman Forbes, Chairman McKeon, 
Ranking Member Bordallo, distinguished members, I thank you for 
allowing me to be here today. These are for sure challenging 
times. You have heard me say that before. We are past a decade 
of war with an All-Volunteer Force. We have always had 
volunteers in our force, but I think it is important to note 
that we have never done this before.
    We have never fought for 10 years. We have never fought 
with an entirely volunteer force. That force is amazingly 
resilient, but at the same time, it is strained. Its equipment 
is strained. The soldiers are strained. Families are strained. 
But they have been absolutely amazing over these 10 years of 
war.
    I would like to leave you with three key points in my 
opening statement. The first is that we recognize budget cuts 
and corresponding reductions to force structure will be made. 
However, we must make them responsibly, so that we do not end 
up with either a hollowed out force, and I can expand on that 
later on, or an unbalanced force.
    Our Nation is in the midst of a fiscal crisis and we 
recognize we must all do our part. We are continuing to 
identify efficiencies. We worked very, very hard on our 
capability portfolio review process, which have found many of 
those efficiencies. And we will book many, many more.
    When we appeared before the committee in July, we were 
looking at cuts in the vicinity of $450 billion over 10 years. 
If the Army's portion of that cut is at historical percentages, 
at about 26 percent, that will be in fact tough, but as the 
Secretary of the Army and the chief of staff of the Army have 
said, it will be doable. I am the vice. I get paid to worry 
about things, and I worry our cut may be a little higher than 
that. And that causes me some angst.
    But above and beyond that, will directly and deeply impact 
every part of our Army and our ability to meet our national 
security objectives and effectively protect our country against 
all threats. Whatever cuts are made carry risks. And 
historically, it is amazing to sit here as the vice chief of 
staff where so many of the 32 before me--or 31 before me have 
sat--at a similar time in our history and had to make some of 
the same arguments, answer some of the same questions.
    I am sure that was true in the debate after the war. I was 
in Indianapolis recently, and I saw a war memorial to ``the'' 
war. Of course, it was World War I, and we cut our Army down to 
just over 300,000 folks. Only to grow it to 8.5 million to 
fight that 4-year war.
    At the end of that war we cut our Army again, down to about 
530,000 folks--soldiers. The number sounds familiar, I hope. 
And we ended up with the Korean War. And in the Korean War, the 
first battle of that war was, for the Army, a very famous Task 
Force Smith. An ill-equipped, ill-trained force that had 
infantry battalions that were incomplete, infantry battalions 
that were missing, and the results were predictable.
    And it is interesting to note that General Bradley, when 
the cuts were talked about after World War II, supported them. 
He went on to say that the strength of the military depended on 
the economy, and we must not destroy that economy. But in his 
autobiography after the Korean War, Bradley wrote, ``My support 
of this decision, my belief that significantly higher defense 
spending would probably wreck the economy, was a mistake. 
Perhaps the greatest mistake I made in my post-war years in 
Washington.''
    I lived through an Army that came out of Vietnam and did 
some of the same kind of things. And for 10 to 12 years we had 
to rebuild that Army. These questions, these decisions have 
been made before, and there is just a tendency to believe at 
the end of a war that we will never need ground forces again. 
Well, I tell you that we have never got that right. We have 
always required them. We just don't have the imagination to 
always be able to predict exactly when that will be.
    My final point is that whatever decisions are made, 
whatever cuts and reductions are directed, we must--we must--
ensure we do not lose the trust of the soldiers, the brave men 
and women who have fought for these last 10 years, and their 
families.
    Mr. Chairman, I thank you, and I look forward to your 
questions.
    [The prepared statement of General Chiarelli can be found 
in the Appendix on page 43.]
    Mr. Forbes. Thank you, General. And we hope to get into 
that in a little more depth as this hearing goes on, and what 
that compensation cuts could mean to your force. But thank you 
for that.
    Admiral Ferguson, you are facing a tough time now as we tee 
up your opening remarks. You are looking at a Navy, as we 
understand the facts, that--we can argue about numbers--China 
right today has more ships in their navy than we have in our 
Navy, according to Admiral Willard. And again, we can pick or 
choose some them. Not through any fault of yours, but through 
dollars and cents we have sent to you.
    You have got a $367 million shortfall in your maintenance 
budget, because of dollars we haven't given to you. We 
recognize that on surface-to-surface missiles we have a 
distinct challenge between Chinese missiles and our missiles, 
because we haven't give you dollars we needed for technology.
    And in addition to that, we see the projection for our subs 
that could put us in the next 10 years where China would have 
78 subs to roughly 32 for ours. And we can argue a little bit 
around the edges of those. But what do these cuts mean to you, 
this $465 billion that we have already done to your men and 
women serving under you to the United States Navy? And what 
would it mean if we put additional cuts out to you?
    Anything you want to put in your opening remarks, we want 
to hear from you now.

  STATEMENT OF ADM MARK E. FERGUSON III, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Ferguson. Well, thank you, Chairman Forbes, 
Chairman McKeon, and Ranking Member Bordallo, and distinguished 
members of the Readiness subcommittee.
    It is my first opportunity to testify before the committee. 
And it is my honor to represent the men and women of the Navy 
Active Reserve and Civilian, who do stand watch around the 
globe today. I would like to offer my appreciation on their 
behalf for the congressional support of them and their 
families.
    In an era of declining budgets we are ever mindful of the 
lessons of the past when we assess force readiness. Taken in 
sum or in parts, low personal quality, aging equipment, 
degradation in material readiness, and reduced training will 
inevitably lead to declining readiness of the force. We remain 
committed to maintaining our Navy as the world's pre-eminent 
maritime force.
    And to do so, we must sustain a proper balance among the 
elements of current readiness, and to the long-term, and those 
long-term threats to our national security. Those elements or 
readiness may be simply stated. Sustain the force structure 
that possesses the required capabilities to pace the threat. 
Man that force with high quality personnel with the requisite 
skills and experience. Support with it adequate inventories of 
spare parts and weapons. Sustain the industrial base that 
sustains that force, and exercise it to be operationally 
proficient and relevant.
    So our objective and challenge in this period of austerity 
will be to keep the funding for current and future readiness in 
balance, and holding acceptable level of risk in the capacity 
of those forces to meet the requirements of the combatant 
commanders. How we shape ourselves in this environment must be 
driven by strategy. And we feel that is extraordinarily 
important.
    The cuts that are contained that you discussed, Chairman 
Forbes, we will accept as part of that. Some reductions in 
capacity. It will affect certain areas of presence that we have 
around the world, our response times. But the decisions will be 
tough, but they are executable. And we think that in looking at 
the strategy with you that is going on in the Department, we 
can meet those challenges. And we will meet those challenges 
that are contained in the Act.
    We intend to take a measured approach. And we will look at 
both efficiencies in our overhead, our infrastructure, 
personnel costs, our force structure, and our modernization. 
Absent the support of the Congress, and you alluded to the 
impact of sequestration. That impact on our industrial base in 
our Navy will be immediate, severe, and long lasting, and 
fundamentally change the Navy that we have today.
    So, Mr. Chairman, Congresswoman Bordallo, members of the 
committee, I appreciate the opportunity to testify, and look 
forward to answering your questions as we go forward.
    [The prepared statement of Admiral Ferguson can be found in 
the Appendix on page 54.]
    Mr. Forbes. Thank you, Admiral Ferguson.
    And General Dunford, you have also served your entire 
career with the men and women under you in the Marines. And one 
of the things that a lot of people believe is that once we get 
out of Iraq, and we get out of Afghanistan, you will have all 
the resources you need to do everything you need to do around 
the world.
    If you look at the cuts that have already been made, and we 
look at these potential cuts from sequestration, the 
projections are that your forces could go down as low as 
150,000 men and women. If that were to occur, what would that 
impact be on you? And would you be able, even if we were out of 
Iraq and Afghanistan, to conduct a single contingency around 
the world?
    And with that, if you would answer that question in any 
opening remarks that you have, General. The floor is yours.

 STATEMENT OF GEN JOSEPH F. DUNFORD, JR., ASSISTANT COMMANDANT 
             OF THE MARINE CORPS, U.S. MARINE CORPS

    General Dunford. Chairman McKeon and Chairman Forbes, 
Ranking Member Bordallo, members of the committee, thanks very 
much for the opportunity to appear before you today to talk 
about the readiness in the Marine Corps, and more importantly, 
to have the opportunity to thank you for your support of your 
Marines.
    As we meet this morning, almost 30,000 around the world 
doing what must be done, 20,000 of those in Afghanistan. I want 
to assure this morning that those marines remain our number one 
priority. And with your support they are well-trained and ready 
to do the mission.
    Like you and my colleagues, I recognize that the Nation 
faces an uncertain security environment, and some difficult 
fiscal challenges. And there is no doubt we have some tough 
decisions to make. That to support the difficult decisions we 
have to make, we have recently this year gone through a force 
structure review effort. We have shared the results of that 
with the committee in the past, and would offer that that 
framework will allow us to provide recommendations to the 
Secretary of Defense, and frankly, to frame the issues similar 
to the ones that the Chairman asked me as his opening question.
    I want to assure you that we recognize the need to be good 
stewards of resources. And we are working hard to account for 
every dollar. We are also looking to make sure that every 
dollar is well spent. In the end, we know we are going to have 
to make cuts. As we provide our input, I think we need to 
address three critical considerations: strategy, balance, and 
keeping faith.
    With regard to strategy, we simply need to know what the 
Nation requires us to do, and then with the resources available 
we will build the most capable force we can to do it. As 
Secretary Panetta refines the strategy, the command is going to 
use what we learned during the force structure review effort to 
make recommendations.
    With regard to balance, we don't want to make cuts in a 
manner that would create a hollow force. We have certainly seen 
that in past drawdowns. Like General Chiarelli mentioned, I 
have seen that personally in the 1970s as a young lieutenant. 
And we don't want to go back to the days where we have an 
imbalance between our training, between our equipment, and 
between our modernization efforts.
    What the command is committed to is that regardless of the 
size of the Marine Corps at the end of the day, every unit that 
is in the United States Marine Corps will be ready to respond 
to today's crisis today. Finally, we have to keep faith with 
our people. And we need to do that, because it is the right 
thing to do, and because it is necessary for us to maintain a 
high-quality All-Volunteer Force.
    In all of our deliberations we need to send a loud and 
unmistakable message that the contributions that our men and 
women have made over the past 10 years are recognized and 
appreciated. And there are certainly many different definitions 
of keeping faith. And I think something attributed to George 
Washington gives us a good baseline for our discussion this 
morning.
    Washington said, ``The willingness of future generations to 
serve shall be directly proportional to how they perceive 
veterans of early wars were treated and appreciated by our 
nation.'' And those words to me seem as relevant today as they 
were over 200 years ago.
    Chairman Forbes, to get back to your specific question, 
what happens if the Marine Corps is at 150,000? When we went 
through the force structure review effort, we came up with a 
size Marine Corps of 186,800. That is a single major 
contingency operation force. So that force can respond to only 
one major contingency.
    One hundred and fifty thousand would put us below the level 
that is necessary to support the single contingency. The other 
thing I would think about is what amphibious forces have done 
over the past year. Humanitarian assistance, disaster relief 
efforts in Pakistan. Supporting operations in Afghanistan with 
fixed wing aviation. Responding to the crisis with pirates on 
the M.V. Magellan Star. Supporting operations in Libya. 
Supporting our friends in the Philippines and Japan. And quite 
frankly, at 150,000 marines we are going to have to make some 
decisions.
    We will not be able to do those kinds of things on a day-
to-day basis. We will not be able to meet the combatant 
commanders' requirements for forward-deployed, forward-engaged 
forces. We will not be there to deter our potential 
adversaries. We won't be there to assure our potential friends, 
or to assure our allies. And we certainly won't be there to 
contain small crises before they become major conflagrations.
    So I think that 150,000 marines I would offer there would 
be some significant risk both institutionally inside the Marine 
Corps, because we will be spinning faster and causing our 
marines to do more with less. But as importantly, perhaps more 
importantly, the responsiveness that we will have, combatant 
command's contingencies and crisis response, would be 
significantly degraded.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 59.]
    Mr. Forbes. Thank you, General.
    And General Breedlove, we thank you for working in your 
schedule to be here. Oftentimes, we hear everybody talking 
about leaving Iraq and Afghanistan. But we know when the Air 
Force, when everybody else might come home, the Air Force 
oftentimes does not come home. They still have to stay there 
and continue to do operations.
    I would like to have any comments that you have about what 
these cuts have made to the Air Force already and what future 
cuts could do?
    And the floor is yours.

STATEMENT OF GEN PHILIP M. BREEDLOVE, VICE CHIEF OF STAFF, U.S. 
                           AIR FORCE

    General Breedlove. Thank you, Chairman Forbes, Chairman 
McKeon and Congresswoman Bordallo. Thanks for the opportunity 
to talk to you today about 690,000-plus proud airmen who serve 
as a part of a joint team that you see in front of us.
    These are challenging times and the Air Force has been at 
war for more than two decades. We have fought alongside our 
joint team in Afghanistan since 9/11, and we went to the Gulf 
in the Gulf War in the beginning of the 1990s, and we didn't 
come home.
    To your point, sir, quite often when the mission comes back 
from a war we leave significant assets to overwatch remaining 
forces to provide support to those who would remain behind in 
the regions. And that was witnessed, as you know, in Northern 
Flywatch and Northern--Southern Watch. And the Air Force stayed 
there and kept pretty high OPTEMPO [operations tempo].
    The cuts that we see in front, I think my remarks we will 
talk about in just a minute. They are challenging times and the 
``ops [operations] tempo'' is exacerbated I think by the fact 
that our Air Force has, since the opening of the Gulf War, has 
34 percent fewer aircraft than we started that war with, and 
about 26 percent fewer people. So the tempo that we face which 
we don't see a change in, in the future, puts a pretty big 
stress on the force. And that has led to a slow but steady 
decline in our unit readiness, as we have discussed with this 
committee before.
    We have tried to reset and in the middle of that, to pick 
up new missions. As you know, the Air Force has built mission 
inside, as we have been asked to support this joint team in 
intelligence, surveillance and reconnaissance. We have also 
been asked to build an increased capacity in special 
operations. And we will continue to meet both of those 
requirements as a part of this joint team and answer the call 
in the future.
    All the while the strain put on our force in the need to 
recapitalize our aging fighter, tanker and bomber fleets. As 
you know, we are flying the oldest fleet that the Air Force has 
ever flown, and we do need to desperately get to 
recapitalization during this age of fiscal austerity.
    The Department of Defense we know will have to be a part of 
this recovery, and the Air Force will play its part in that 
recovery. Our goal is to do two things. And you have heard 
several of my predecessors remark on them. First of all, 
maintain a credible military force. We expect that it will be 
smaller, and quite frankly, much smaller in some areas. But we 
need to renew a credible and capable force as we get smaller.
    And second, to avoid becoming a hollow force, like Joe and 
Pete mentioned. I was in the Air Force in the 1970s and saw 
what a hollow Air Force looked like. Flight line with airplanes 
that couldn't fly and buildings with many people who had no 
training or ability to go out and accomplish a mission if the 
airplanes had flown. And we don't want to go there again. We 
will get smaller to remain capable with the forces that are 
left behind.
    Many of the challenges we see will come on our people and 
on the backs of our people. As we get smaller and as we expect 
the tasking does not change, as we mentioned, in many cases we 
stay behind when there is a peace dividend, the deployed to 
dwell times and the OPTEMPO on our airmen will only increase. 
And more importantly, I think the OPTEMPO on our proud Reserve 
component, which you know is an integral part of our Air Force, 
will have to increase, because they will become ever more 
important in a diminishing force.
    Finally, sir, if the sequester cuts envisioned in the 
Budget Control Act are allowed to take place, we are going to 
have to go beyond just getting to our capacity. We believe we 
will have to then begin to look at what are the capabilities 
that we will have to shed and no longer offer to this joint 
team. A reduction in size would reduce the number of bases that 
we could support, the number of airmen that we could keep on 
board the Air Force. The impact to the size of our industrial 
base will certainly be important, just as it is to the Navy.
    And then finally, much as Joe has mentioned, as we 
downsize, some of the first missions we will have to shed is 
that engagement that we see around the world, where we preclude 
further conflict, or where we build allies that will help us to 
come fight. We will not be able to make those contributions.
    I look forward to your questions, Mr. Chairman.
    [The prepared statement of General Breedlove can be found 
in the Appendix on page 65.]
    Mr. Forbes. Thank you, General.
    And as each of you know, this is probably the most 
bipartisan committee in Congress. We work together very, very 
well and it is a privilege to have all of our members here. We 
are also honored today, we have the chairman of the full 
committee. And part of that reason that we serve in such a 
bipartisan and effective means is because of his leadership. He 
has graciously said that he would like for our members to be 
able to ask questions, so I don't think he is going to ask any 
questions. But I would like to defer to him now for any 
comments that he might want to make.
    Mr. Chairman.
    The Chairman. Thank you, Mr. Chairman. And thank you for 
being here and for your comments.
    I think that the cuts that you are all working hard to put 
into place, I met with Admiral Mullen, oh, probably a month and 
a half ago, and he said that he had assigned to the Chief's 
$465 billion in cuts. And that came from the President's speech 
of cutting $400 billion, and the $78 billion that they had 
found, and the $100 billion that you had gone through in 
efficiencies, and what we did in the CR [Continuing 
Resolution]. It is an accumulation of a lot of things, and it 
is hard to actually get the exact number.
    I know when the Secretary came up a couple of weeks ago he 
was 450-plus. I have also heard 489, so it is somewhere between 
450 and $500 billion that you are dealing with that we will 
start hearing the details on, I am sure, in January. But I 
think many in Congress, and I think most people in the country, 
do not understand. They are focused on the ``super committee'' 
[Joint Select Committee on Deficit Reduction] and the $500-to-
$600 billion that we will be hit with if they are not able to 
do their work.
    But they don't realize the extent of the cuts that you have 
been working on now for a period of time, and that will be 
hitting us next year. And we are talking--well, we have had 
five hearings at the full committee level, not counting all of 
the committees' meetings, subcommittee levels, to try to get a 
handle on this and to try to educate the rest of the Congress 
and the rest of the populace of the country as to what really 
is going to happen to our military. The first five hearings 
were the impact of--on the actual military, the men and women 
that you serve with, those who are laying their life on the 
line right now as we talk.
    I have seen in my lifetime lots of drawdowns. I have never 
seen us do it when we are fighting a war. And so, I think it is 
really incumbent upon us to try to get the word out, the 
message, to see if this is really what people expect. When I go 
home and talk to people and tell them what is happening, they 
said, no, that isn't what we wanted. You know, we wanted to get 
the troops out of Germany, or we wanted to cut the waste, or we 
wanted to get the troops home from Korea or somewhere. They do 
not realize the extent of what has already been done, let alone 
what will happen with that super committee.
    And then yesterday, we had another hearing where we had 
three economists and they talked about the financial impact to 
our economy. When we are already in a fragile economy with a 9-
percent unemployment rate, they are talking about job losses of 
a million and a half, which would increase that unemployment 
rate up over 10 percent. And I think when all the members start 
looking at their districts and at their homes and the lost 
jobs, the combination of all of this I am hoping will make us 
sit back and take another breath and say, wait a minute. You 
know, is this really what we want to do?
    This economic problem that we are in right now, that we 
have been building over decades, cannot be solved in one budget 
cycle. I think we have to have some real understanding of what 
we are doing here. And is this really what we want to do, given 
the risks that we see facing us around the world?
    With that, Mr. Chairman, I thank you. I thank you for being 
here. And it looks like we are going to be having votes, by the 
way, which is unfortunate. But I am hopeful that we return 
after the votes.
    Mr. Forbes. Thank you, Mr. Chairman.
    I am going to defer all my questions until the end, so we 
can get to as many members as we can.
    I would like to now recognize the gentlelady from Guam for 
any questions she might have.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I hope 
everyone bears with me. I have a very bad cold.
    I have a couple of questions. And I understand we are 
coming back for a second round? All right.
    My first question, as I pointed out in my opening 
statement, Admiral Greenert stated in July that further 
efficiencies and budget cuts would be determined through a 
comprehensive strategic review. So I am asking to what extent 
are each of the Services involved with OSD [Office of the 
Secretary of Defense] in developing this review, what are some 
of the key tenets of this review? And without a strategic plan 
in place, why are we proceeding with arbitrary cuts? Why not 
wait until such a plan is developed?
    So I ask this, because I do not understand the rationale 
for the reductions in force at Naval Facilities Command 
Pacific, or the deactivation of the two Seabee battalions.
    So I guess we will start with Admiral Ferguson?
    Mr. Forbes. And if the gentlelady would just yield for a 
second. Just logistically to our members, they have called a 
vote I understand now. If any of our members need to go to that 
vote we will be coming back afterwards for anyone who can come. 
Ms. Bordallo's questions will be the last ones we take before 
we recess to go to the vote.
    So, and with that, if you would like to answer?
    Admiral Ferguson. Ms. Bordallo, by all the Services are 
participating at the service chief level and at the vice chief 
level in the forums that is the ongoing strategy review at the 
level of the Secretary of Defense, as is the Joint Staff. And 
those discussions that are ongoing presently are looking at the 
budget submission that the Services have done, and then 
looking--and they were primarily given a fiscal target, as you 
alluded to, for us to reach.
    And now, they are looking at those fiscal submissions and 
then looking at the overall strategy as we go forward. And 
then, we will take action as we make those decisions through 
the fall part of the budget submission about balancing between 
those portfolios in terms of both capabilities and capacity, 
and does it meet the strategy that we see going forward?
    Ms. Bordallo. So what you are saying, Admiral, is that the 
reviews are not completely finished; is that correct?
    Admiral Ferguson. That is correct. From our perspective, 
the decisions regarding the final form of the budget submission 
are not completed yet. And those discussions are ongoing. And 
there is very active participation by the service chiefs on 
that.
    Ms. Bordallo. Do we have time for any of the other answers, 
or do we have to----
    Mr. Forbes. Yes, let us let any of them answer that want 
to, and then, Madame Secretary, we will come back to any 
additional questions you have.
    Ms. Bordallo. All right.
    Mr. Forbes. Because you and I will be here.
    Ms. Bordallo. Okay.
    Mr. Forbes. Would anyone else like to respond to the 
gentlewoman's question?
    Ms. Bordallo. General Dunford.
    General Dunford. Congresswoman, thank you. We are also--I 
mean, Admiral Ferguson got it exactly right. We are 
participants fully in the process to do the comprehensive 
strategic review led by Secretary Panetta.
    We have an opportunity to provide input in that 
comprehensive strategic review and we are confident that the 
results of the strategic review will be the framework within 
which specific cuts are made.
    As Admiral Ferguson alluded to, necessarily what we had to 
do in the initial going was take a look and assume proportional 
cuts across the board as we went through the drill of 
approximately $450 billion. But, again, at the end of the day 
as we get towards December, the strategic review, at least the 
major tenets of the strategic review, will be complete and at 
that point, we will be able to talk about the specific 
decisions that I think that Secretary Panetta will make.
    But our understanding is that he has not made any final 
decisions about the specific cuts that would be made in order 
to achieve that initial goal.
    Ms. Bordallo. So pretty much the other witnesses have the 
same answer?
    General Chiarelli. I would argue from the Army's standpoint 
that is exactly--we are participating in the internal debate in 
the building. But like when I get up in the morning and I see 
the futures, how they are doing in the stock market, if I had 
to look around town and read what all the think tanks are 
saying, they seem to be discounting the requirement for ground 
forces, which is a natural tendency after what we have been 
through in the last 10 years. But every other time we have done 
that in our history, as I indicated before, we have done soon 
the backs of service men and women, soldiers on the ground.
    And quite frankly, let us be honest. It has cost us lives. 
It cost us lives at Kasserine Pass. It cost us lives at Task 
Force Smith in Korea. It cost us lives every single time.
    Ms. Bordallo. Well, and we haven't done this when a war is 
going on as our chairman mentioned. What is the timeline for 
the review completion?
    Mr. Forbes. I am going to ask you guys to do this. Let us 
hold that until we get back, because we have just got a few 
minutes to get up for vote. So we are going to recess until 
right after the votes. Anyone that can come back then, we will 
be there.
    [Recess.]
    Mr. Forbes. Gentlemen, once again we apologize to you for 
the inconvenience of us having to go over there and do those 
votes. But that is what we are here for. So we thank you for 
your patience.
    And we were continuing with Ms. Bordallo.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General Breedlove, we will begin with you. What is the 
timeline now for the review completion?
    General Breedlove. Ma'am, as we were walking out, we all 
looked at each other, and came to the same conclusion. We 
expect that the review should wrap up in December. And then as 
we are working on the budget issues between now and then, as we 
understand the facets of the review that apply to our budget 
processes, we do that.
    And ma'am, I would just echo with my three compatriots as 
they said, we are to this point, and we have been a part of 
formulating that strategy.
    Ms. Bordallo. Thank you very much. So that is the end of 
December, did you say?
    General Breedlove. Ma'am, that is our collective wisdom. We 
all have the same date in mind.
    Ms. Bordallo. All right. Thank you.
    And then, Admiral Ferguson, you didn't answer fully the 
question that I asked about the review process. I said I did 
not understand the rationale for the reductions in force at 
Facilities Command Pacific, or the deactivation of the two 
Seabee battalions. Could you answer that?
    Admiral Ferguson. As we looked at the force structure of 
the Construction Battalions around the globe, the initial 
budget submission that we prepared had a reduction in order to 
meet the commands of the combatant commanders. And as we size 
our forces, those forces are really on call to the combatant 
commanders to serve what we see as a future demand.
    As I alluded to in the opening statement, we had to take 
reductions in certain elements of capacity across the force in 
order to meet the budget targets that we had. And then we 
looked at that, areas of the Seabees in particular as a 
potential reduction. As we go forward in this review process, 
that is part of the effort that we are looking at as to what 
the final force structure of the Construction Battalions would 
be.
    Ms. Bordallo. Thank you. Now, I have one other question. 
Why would Congress consider any potential changes to recruiting 
and retention incentives such as military retirement and health 
care, or reductions to essential training accounts, when the 
military departments can't identify the cost of what they pay 
for contracted services?
    The Army has fulfilled the requirements of the fiscal year 
2008 National Defense Authorization Act that requires 
contracts, or requires an inventory of contracts, for services. 
But for nearly half a decade while this Nation has been at war, 
the Air Force and the Navy and the defense agencies have failed 
to implement this law, which would help us control the 
skyrocketing costs and expenditures on contracted services.
    So what is each of your military departments doing to 
reduce contracted services and work requirements, instead of 
just reducing dollars? If you are only reducing dollars then 
you are likely setting up conditions to default to contractors 
in light of the current civilian hiring freezes.
    So I guess Air Force will answer that first.
    General Breedlove. Congresswoman Bordallo, thank you for 
the opportunity. We are, as are other Services, looking at 
everything we do contractually, especially as we learned the 
lessons of the wars that we have been in for the past 10 years. 
What is inherently governmental and what should we be retaining 
as a blue-suit requirement, versus those things that we 
contract for, most specifically in combat zones.
    And every facet of what we do via contract has been 
reviewed to see if this is something that we either want to 
eliminate, do we need to repurchase and bring back into our 
service those things in a military way? Of course, this is in a 
time when we expect that our Air Force will get smaller rather 
than larger, so there is a lot of pressure on that process.
    And what are, or how does that relate to those jobs that 
typically our civilians also do, civilians who are a part of 
our Air Force? So we are in an ongoing review. We are focusing 
most specifically on those things that are done in combat zones 
and whether they should be a blue-suit job or a contract job. 
And we are putting fiscal pressure on what we spend on 
contracts to help us incentivize looking at how to get at that 
approach.
    Ms. Bordallo. Anyone else care to answer?
    Admiral Ferguson. I know that in the Navy the Secretary--
Office of the Secretary--is leading an effort that goes across 
all our budget submitting offices to look at service contracts 
in particular and other contracts that we have along the same 
lines that the other Services are, to see what is inherently 
governmental and where are we paying excessive overhead and 
charges in that area?
    Ms. Bordallo. Are you all in agreement?
    General Chiarelli. We are doing exactly the same thing. We 
have appointed, I believe it is a deputy secretary to handle 
contracts and service contracts, going through a complete 
review of them to understand where there are redundancies, 
where there are places that we in fact can cut and where there 
are certain areas that may fall under the purview of being able 
to use soldiers to help us in some of these areas.
    Ms. Bordallo. General.
    General Dunford. Congresswoman, we are a part of the same 
process that Admiral Ferguson described within the Department 
of the Navy.
    Ms. Bordallo. All right. When is the timeline for this 
review?
    General Dunford. I will be honest, I am not sure. You know, 
process within the Department of the Navy, I do not know what 
the timeline is for the review. My assumption is that it is in 
conjunction with the budget that will be due in December. I 
know we will at least have initial assessment of our 
contracting at that time. And I will get back to you if it is 
going to extend past December.
    Ms. Bordallo. Thank you very much.
    Thank you, gentlemen.
    Mr. Chairman, I yield back.
    Mr. Forbes. And the gentlelady from Guam has yielded back. 
I know she has some additional questions, but she has 
graciously deferred those until the end so that some of our 
members can get their questions in.
    We now will have the gentleman from Georgia, Mr. Scott, for 
5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And gentlemen, one of the things I would hope that you will 
continue to do is to inform the committee of things maybe that 
are in the code sections that we could take out that are 
increasing your cost of operations, things that we would like 
to pretend that we can afford, but we can't.
    Such as some of the energy mandates and other things that 
are running up the costs of operations. General Breedlove, as 
you know, I represent Robins Air Force Base and I would like to 
once again invite you down to the Air Logistic Center and the 
JSTARS [E-8 Joint Surveillance Target Attack Radar System]. And 
if you will come in hunting season I promise I will make it a 
worthwhile venture.
    I will even get you to a Georgia Tech game, although I 
might wear a different hat at the game than you would. But 
Georgia Tech would be a great opportunity for you to come as 
well. But the men and women in our area are very grateful for 
the commitment of the three-depot strategy and just want to 
again ask that question, make sure that that is a commitment 
from the Air Force that we have to maintain the three depots?
    Thank you. Thank you so much for that, and I hope that as 
we go through these cuts that--let me say this as a member of 
Congress, I know that you know more about running your 
agencies, your different departments, I should say, than I do. 
And I hope that you will be very forthcoming with us about what 
we can do to help you in doing that.
    And I want to be an ally for you. I am sorry that we are 
going through this. I am quite honestly embarrassed that we 
have more discussions in this Congress about cuts to the 
military than we do about cuts to social programs. I think that 
is something that quite honestly is carrying America down a 
very, very dangerous path. And I know America is tired of the 
wars in Afghanistan. And I know that our men and women that 
have been over there will continue to go.
    But I also know that they are ready for more time with 
their families. But I am not so sure that when we come out, 
that the world is not going to be a more dangerous place than 
it is today. So again, I want to thank you for everything you 
have done.
    And General Breedlove, again, thank you for your support of 
Robins. And if I can ever help you, please feel free to call on 
my office.
    General Breedlove. Congressman, thank you and we do have a 
commitment to the three depots, that we think that is the 
minimum. And we thank you for your support to us. And as all of 
us, I think, look at what we can do to address the tail of our 
forces to add to the tooth, and that will continue to be 
important as we go forward.
    The depots, as you know, bring a capability to all our 
Services that is unmatched around the world to make sure that 
our Services, our Air Force, and the airplanes that they fly 
are ready to do the mission, and our commitment is strong 
there.
    Mr. Scott. Yes, sir. And the other aspect of it is that 
those cuts, you know, we need to rebuild a lot of our machines 
that we have used. And when every dollar that we take out of 
the rebuilding of those machines is a dollar that comes out of 
a man or a woman's pocket that is working on that assembly 
line. So if you want to create jobs in the country, I would 
respectfully submit that this is the place where you do it.
    The country, every citizen gets a direct benefit from a 
strong, well-equipped military. And every dollar that we spend 
in rebuilding our equipment is a dollar that goes back into an 
American working man and working woman's pocket to take care of 
their families.
    So, thank you again for what you have done for our country, 
and I will continue to stand ready, willing and able to help 
you.
    I yield back.
    Mr. Forbes. The gentleman yields back.
    The gentleman from Connecticut, Mr. Courtney, is recognized 
for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you for 
holding this hearing, and to the witnesses for spending some 
time with us here today.
    First of all, I guess I just want to ask a question about a 
very specific issue, which is the C-27 cargo aircraft, which it 
appears that a full production sort of plan has sort of been 
sort of put on hold, or at least partially delayed. And, you 
know, obviously for the Army that is a big issue in terms of 
having that lift capacity, because it is a pretty old group of 
Sherpas that are left there.
    I just wondered if somebody can give me an update in terms 
of where that decision stands, whether it is related to the 
$465 billion, or are there other issues that are at work here?
    And I don't know whether either General wants to comment, 
but----
    General Breedlove. Sir I will be first to comment on that. 
I cannot speak specifically to what you mention about a 
decision on full-scale production. We will take that for the 
record and get back to you.
    [The information referred to can be found in the Appendix 
on page 77.]
    General Breedlove. As far as the C-27 and the mission of 
supporting the Army in its what would probably be called the 
last portion of the delivery of goods to our ground forces, 
both Marine and Army, the Air Force has a full commitment to 
that mission.
    We will not back off of the requirement for the Air Force 
to meet that mission. If that mission is to be done with C-27s 
or C-130s is a decision that is still pending, and is a part of 
this ongoing budget review. But that will be worked out in the 
next few months.
    Mr. Courtney. Thank you.
    General, if you wanted to comment.
    General Chiarelli. Well, the Army is very committed to the 
C-27. We feel it fills a gap. Right now my rotary wing aviators 
are at about a 1:1 BOG:Dwell [Boots On the Ground:Dwell], that 
means boots on the ground for 12 months. And they are coming 
home from anywhere from 12 to 14 months. Rotary wing is the 
coin of the realm down range today, and a lot of it is moving 
from airfield to airfield where the C-27 could fill in a gap 
that we think is absolutely critical.
    Even in Afghanistan, but if you take it to other places in 
the world I think it is even more convincing. Plus, it provides 
a tremendous capability for homeland defense, and that is one 
of the things that was critical about the C-27 and its ability 
to get into air fields here in the United States that other 
aircraft can't get into in the event of homeland defense kinds 
of missions. So we are totally committed to it.
    Mr. Courtney. And again, if we can get that follow up, that 
would be great. A number of us are definitely interested in 
helping, you know, push that along if there is a way that we 
can.
    Admiral, I think the Chairman in his opening remarks talked 
about some of the shortfalls in the repair and maintenance 
account. And you know, in many respects this should be sort of 
a milestone year for the Navy in at least one aspect, one that 
probably did for me ad nauseam around here about, which is the 
submarine fleet, but, you know, we are now at to a year of 
production for the first time in 22 years, you know?
    We are doing, again, full startup of R&D [Research and 
Development] for the Ohio Replacement Program. But obviously, 
you know, this is progress that could be challenged if the 
sequestration goes into effect. And I guess, you know, maybe if 
you could talk a little bit more about Mr. Forbes' comment 
regarding the repair and maintenance account, in particular in 
terms of the impact on the fleet size and capability and----
    Admiral Ferguson. Sure. It is an important point, because 
the Navy we reset in stride. And so, we deploy and, in fact, 
over half our forces are under way, ships and submarines, on a 
given day, and about 40 percent are forward-deployed.
    The demand for those forces is going up. So we don't have 
the luxury of taking them offline for prolonged periods of 
time. And so, the maintenance funding that we have when we 
bring them home for their turnaround is absolutely essential to 
sustain that force, to reset it and then prepare to go both the 
amphibious lift for the Marines, as well as aircraft carriers, 
submarines and surface ships.
    And so we have watched the trend in readiness over time. We 
are operating within acceptable levels, but as Admiral Greenert 
testified previously, there is a negative trend over the long 
term as we shrink those maintenance funds.
    And so, as we go forward, we are actually committed to 
keeping the force whole and ensuring that those forces that are 
operating are well-maintained and equipped and go forward. But 
it does present a challenge to us in an era of declining 
budgets.
    Mr. Courtney. Thank you.
    I yield back, Mr. Chairman.
    Mr. Forbes. Thank the gentleman.
    The gentleman from Alabama, Mr. Rogers, you are recognized 
for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    I thank all of you for being here.
    The DOD [Department of Defense] in this current year budget 
had projected fuel costs for a barrel of oil to be $131 and DLA 
[Defense Logistics Agency] has recently pegged it now at $166 a 
barrel, and is projecting that that level will be sustained 
throughout the balance of this fiscal year.
    How are you all going to deal with that?
    General Breedlove, let us start with you and let us go down 
the other----
    General Breedlove. Sir, thank you for the opportunity to 
talk to it. We do have an aggressive program in our fuel 
savings and are looking at numerous opportunities, both 
existing technologies and new technologies, to get after it.
    A good example is re-coring of our C-130 engines. If we can 
get to a new core of those aircraft on those aircraft engines 
running cooler and running more efficiently, the fuel savings 
is quite important.
    Simple things that we are doing across our aircraft fleet 
like winglets on our larger aircraft and changing, as we buy 
new aircraft, some of the exterior hull designs, cuts down on a 
little bit of fuel.
    You would think that that is not significant, but we 
understand, as you do as well, sir, that the Air Force is the 
number one user of fuel in the United States. And so, every 
little bit that we can cut saves money to roll back into things 
that are really needed in our force.
    So we are attacking this, because it is the most important 
thing to get at for Air Force savings and energy.
    General Dunford. Congressman, thanks so much for the 
question. We share your concern about that, what I perceive to 
be a critical vulnerability, a rise in fuel, not only from a 
cost-perspective, but also from a strained line of logistics as 
we have seen in Afghanistan, the criticality of getting fuel to 
our forces. And what that does in terms of putting people in 
harm's way to deliver that fuel.
    All of our units that are on the ground right now in 
Afghanistan have been fielded with renewable energy sources 
that started as an experiment, and within about 14 months it 
has now become every unit that goes over there has renewable 
energy. And that includes not only solar panels, it includes 
tent liners, it includes low-energy or energy-efficient 
lighting.
    As we look at our requirements as we acquire new equipment, 
fuel efficiency is a critical part of our requirements 
documents as we seek to add new equipment in the future. And 
then as a whole within the Department of the Navy, the 
Secretary of the Navy has led a very aggressive effort to 
replace our fossil fuels with some alternative fuel sources and 
other initiatives in developing technologies that might be 
available to release us from truly the shackles of fossil 
fuels. Again, not only from a cost perspective, but from a 
challenge in delivering that to the battlefield.
    Mr. Rogers. Well, I guess I am hearing from both of you all 
that this 25 percent increase in cost that was not budgeted for 
something you think you are going to be able to adequately deal 
with?
    General Dunford. Congressman, what we are doing is we are 
making choices. I mean, there is other ways that we can, you 
know, we increase in the reliance simulation, as an example, to 
develop proficiency for both our pilots and for our ground 
forces.
    We will make tradeoffs within our operational maintenance 
accounts to ensure that we can maintain a high state of 
readiness and still pay all of our bills.
    I am not going to say it is not going to be difficult. It 
is going to be a challenge. This does exacerbate an already 
stressed operations and maintenance account. But right now, we 
are trying to work within the resources that we have, again, to 
ensure that our folks maintain proper training before they 
deploy. And we have no issue with delivering fuel obviously to 
our forces that are forward-deployed as our number one 
priority.
    Mr. Rogers. Okay. Admiral.
    Admiral Ferguson. We are also a part of the very aggressive 
energy efforts led by the Secretary for all our basing, but I 
think more to your point is the challenge in this fiscal year 
that we are facing.
    And should the current prices be sustained, and lately we 
have seen them start to come down a bit, but if they were 
sustained for the entire year for the Department of the Navy, 
the shortfall would be around $1.1 billion that we would face 
in fuel costs.
    We would have to offset those by reductions in other areas 
of the operations and maintenance account to pay for that, or 
seek a reprogramming or other action from the Congress to 
address it.
    And because it is in execution here, the horizon of many of 
our efficiency initiatives won't generate those savings in 
order to generate them this year. But what we won't do is 
reduce the commitment of those operating forces to the 
combatant commanders and be able to sustain what we need to 
train and operate forward.
    General Chiarelli. I have little to add except for the fact 
that the Army is working in three specific areas in operational 
energy where our force is deployed. And, again, we will do 
whatever we have to do and balance whatever accounts we have 
to, to ensure that they have what they need, but we are looking 
at ways to reduce their reliance.
    One of them is replacing all our generators with new fuel-
efficient generators, and the fuel savings alone down ranges is 
huge.
    Both the request for proposals for the ground combat 
vehicle, the infantry fighting vehicle, and the JLTV, the Joint 
Light Tactical Vehicle, include energy savings. And I think 
that is a big selling point when you look at the total 
lifecycle cost of those vehicles once we bring them onboard.
    And at post camps and stations, we are working with a net 
zero pilot at least three installations. We are using solar at 
the National Training Center and other locations to help with 
our energy needs. And also, we are--the Human Resource Command, 
the new personnel command of the Army out of Fort Knox, 
Kentucky--uses geothermal to produce both its heating and 
cooling in the summertime.
    Mr. Rogers. Thank you all.
    Mr. Forbes. The gentlelady from Hawaii, Ms. Hanabusa, is 
recognized for 5 minutes.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    My question is first directed at General Dunford. By the 
way, I think we owe you a happy birthday to the Marine Corps. 
And you guys are all celebrating in the next couple of days or 
so.
    Let me first begin with statements that you have made in 
your statement. I am curious about the fact that you said that 
our Nation needs an expeditionary force that can respond to 
today's crisis with today's force today.
    Now, first I would like you to explain what you meant by 
the expeditionary force? And also, then tell me, you are 
talking about today's crisis with today's force today, but I 
think what we are looking at as we look forward in a 10-year 
budget, what is the force to look like in the year 2020? And 
those, of course, are discussions that we have been having with 
Secretary Panetta, as well as General--the new chief.
    So if you could, proceed accordingly?
    General Dunford. Congresswoman, the first question 
concerned expeditionary and what that means is a couple of 
things. Number one is we wouldn't be reliant on political 
access being provided by somebody else. If we needed to go some 
place, naval forces are uniquely capable of being able to do 
that.
    We are capable of operating in an austere environment. So 
when we come someplace, we come with the water, the fuel, the 
supplies that our marines and sailors need to accomplish the 
mission.
    And so, that is in general terms what we mean by 
expeditionary. With regard to today's forces today, you know, 
as I alluded to in my opening statement, physical presence 
matters. And physical presence matters for a couple of reasons, 
you know?
    Number one, it absolutely shows a sign of our economic and 
our military commitment to a particular region. It deters 
potential adversaries. It assures our friends. And as you start 
moving up the range of military operations, it also allows you 
to respond in a timely manner to crises.
    Many times you have hours, if not minutes, to provide the--
to respond to a crisis, and you certainly can't do that from 
the continental United States. The naval forces are there on 
the scene able to be able to do that.
    The other thing that it does is it allows you to buy time 
and space for decisionmakers. When you have some forces there, 
they can contain a crisis as the rest of the joint force gets 
prepared to respond to something that may be a bit larger than 
the crisis that is being dealt with on the scene.
    So from my perspective, when you look at expeditionary 
forces and you talk about responding to today's crisis today, 
what you really have with four deployed naval forces, which is 
what I was talking about, is the ability to turn the rheostat 
up from day-to-day shaping operations, day-to-day engagement 
with our allies. In the sticker price of that same force, you 
can then respond to a crisis and in the sticker price of that 
same force you can then enable a joint force to respond to 
something larger on the seismic contingency.
    Ms. Hanabusa. Now, you also went on to say about regarding 
to Secretary Panetta's announcement that he directed the 
Department to cut in half the time it takes to achieve 
readiness.
    Now, I assume that that is one of the reasons what you are 
speaking to here. However, isn't the underlying assumption that 
we all have is that we know where we are going to be? So 
doesn't there also have to be some kind of analysis that if you 
are going to be ready to go within a couple of hours or 
whatever it is, that we know where we would most likely be, 
that your Services are most likely going to be needed?
    For example, I am from Hawaii. So have Kaneohe. I mean, you 
know, if you are going to be deployed in Afghanistan, it is not 
going to be a couple of hours.
    So what is the, I guess, the perceived theater as far as 
your concern as to where--and we have to make these choices, 
because of the fact that we just don't have money for 
everybody.
    So where is it that we are going to put our resources? Or 
where, if you had your magic wand, you would put your 
resources?
    General Dunford. Congresswoman, it is pretty clear, I 
think, to all of us and it certainly has been stated by the 
Secretary of Defense that the Pacific is the future of our 
country from both an economic and a military perspective. That 
is the number one priority.
    We will still, for the foreseeable future, for many, many 
years to come have security challenges in the United States 
Central Command from Egypt to Pakistan. And so that is another 
area where we would expect to see significant military 
presence.
    But I would offer to you that if there is one thing that we 
are not very good at is predicting the future. And so, as sure 
as we talk about the priority of the Pacific, and then the 
challenges that exist in the United States Central Command, 
some place else will cause us to respond, and we don't know 
where that will be.
    And so, when the combatant commander is asked for forward-
deployed naval forces to be out there on a routine basis, each 
of them asks for that. And they ask for that as a mitigation to 
the risk of the unknown. And that is what I believe we provide. 
So again, from the priority perspective, certainly we will see 
the preponderance of effort in our commitment to be in the 
Pacific Command, in the Central Command. But priority can't be 
exclusivity.
    And we are still going to have to satisfy the requirements 
of the other combatant commanders, again, to do not only the 
day-to-day shaping, but as importantly, as a hedge against the 
risk of the unknown.
    Ms. Hanabusa. I am out of time. But if you could respond to 
me in writing, I am curious as to what an expeditionary force 
would be comprised of. And I am talking about ships, 
helicopters, amphibious vehicles, whatever that is? If you 
could give me an idea, so that when we vote on what are the 
things are no longer necessary, I have an idea whether or not 
we know what we are talking about.
    General Dunford. Congresswoman, I will be glad to do that. 
And the good news for you is that there is expeditionary 
capabilities on the islands of Hawaii, and are available in the 
Pacific in time of crisis. But I would be happy to get back to 
you in the detailed organization of Marine expeditionary 
forces, as well as the naval forces that are absolutely 
critical to our ability to do our job.
    Ms. Hanabusa. Thank you very much.
    General Chiarelli. And I would be glad to do the same for 
the Army.
    Ms. Hanabusa. And the Air Force?
    And if you call it something other than ``expeditionary 
force,'' you can tell me that, too.
    Thank you very much.
    [The information referred to can be found in the Appendix 
on page 77.]
    General Chiarelli. I just have to underline something that 
was said. We just don't know. We have been 100 percent right in 
something. And that is never getting it right.
    Ms. Hanabusa. General Dempsey said the same thing.
    General Chiarelli. It is true. It is true. And all you have 
to do is look at history. And when we don't have a balanced 
force that can meet wherever U.S. national interests are 
threatened, where the National Command Authority says that we 
must provide military force, that is when we get ourselves into 
trouble.
    And I think that is very important to look at the history 
of how we have done. We are repeating a cycle here that is 
something that has happened many, many times in our history.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chair.
    Mr. Forbes. And, gentlemen, I want to thank you for your 
patience. We have got just a few more questions. But I know 
that General Breedlove has a hard stop that he has to make.
    I am going to ask the gentlelady from Guam if she can ask a 
quick question of him.
    And then I just have one, if you have the time before you 
have to leave.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    This is for you, General Breedlove. What shortages in 
critical skill sets in your respective Services--well, actually 
a question for all of you--are you already experiencing because 
of manpower reductions already taken? And what impacts would 
you anticipate from further reductions? How are these shortages 
affecting your warfighting capability?
    And General, why don't you go first, since we know that the 
Air Force has experienced shortages in more than a dozen 
enlisted NCO [Non-commissioned Officer] and officer skill sets, 
especially in the aircraft maintenance area.
    Mr. Forbes. And I am going to ask General Breedlove if he 
would address that, and then we will come back to you gentlemen 
after General Breedlove has left, if that is okay?
    General.
    General Breedlove. Ma'am, thank you for the question. And 
you are absolutely right. There are several skill sets, both in 
our officer and enlisted corps, that have come under pressure. 
And I think it talks to capacity, much as General Dunford 
talked to capacity earlier.
    In our Air Force, some portions of our Air Force, such as 
our lift and others, have a good capacity to handle the first 
fight. And then we will be stretched a little bit on the second 
fight. But already in a scenario where we have one full-up 
warfight, or where we are engaged just like we are now in 
Afghanistan and Iraq, we are already stressed in some very key 
areas. And you mentioned several of them.
    In our enlisted corps, our crypto linguists, we are growing 
so fast in intelligence, surveillance, and reconnaissance, that 
we are struggling to keep abreast of the requirement for those 
people who take the data that is coming into the system, and 
break it down for use by our ground forces in others.
    Our battlefield airmen that were built for a certain model 
during the Colder War, we are catching up to the requirements 
for our battlefield airmen. All of the units on the ground are 
supported by those TACPs [Tactical Air Control Party], those 
EOD [Explosive Ordnance Disposal], those air combat control 
folks. CCT [Combat Control Team], meaning our special tactics 
folks, and our pararescue. And those are all under pressure now 
in a one-war scenario, and we have to work on those.
    Special operations, weather, and our security forces, as we 
have picked up more and more of the responsibility of defense 
around bases are all under pressure. In our officer career 
field, some of the things that you would have never thought 
about just simply because of the way that the Services do 
differently.
    We have a lot of senior contracting NCOs and officers. The 
other Services typically do these with civilians. And so, our 
expeditionary officers in some of these critical career fields 
like airfield ops, contracting, and some of our specific 
airfield civil engineering sets, are all under pressure. And 
are things that we need to move forward on.
    As we constrict our force, and we will across these budget 
battles, we are going to be keeping our eye on growing those. 
So the Air Force will come under pressure, I think, in other 
areas. But we will have to keep an eye on those very critical 
ones that I mentioned, so that we can grow to a better and more 
acceptable level of risk in those areas.
    Ms. Bordallo. Thank you very much, General.
    Mr. Forbes. And we will come back to that question as soon 
as the general has just answered one more question.
    General, since the Korean War it is my understanding that 
there has not been a single soldier or Marine who lost his life 
in combat due to a threat from the air. That is 58 years. And I 
may be inaccurate, but that is a statement that was given to 
me. Oftentimes, we call that air dominance. If we were to move 
to those cuts that sequestration could bring about, would that 
put into question our continued ability to have that kind of 
air dominance?
    General Breedlove. Mr. Chairman, I would never--we never 
beg to correct. But I would just correct in one way. We have 
since the Korean War suffered an air attack by Scuds, and some 
others who have taken the lives of our soldiers, sailors, 
airmen, and marines on the ground. So, just with that small 
correction.
    I think the point that you make is the one that is often 
talked about. And that is to fixed wing air to our opponents' 
air forces, our naval air forces, we have not lost--been under 
attack since the latter part of the Korean War. And that is 
something that our Air Forces, centered on our Air Force, but 
certainly our Marine air and naval air, and to some degree even 
the rotary ring of the Army, we have put together what you call 
``Air dominance'' across the years to give our ground forces 
the ability to react and to fight under that protection.
    I give you one small example that my friend from the Army 
will chuckle about. And that is, when I was an ALO [Air Liaison 
Officer] in Europe during the late 1980s, and we would practice 
for the big war on the plains of northern Germany, we would go 
out in our brigade formation when I was a brigade TACP. And 
when we came under attack from supposedly Soviet force air, we 
would do herringbone maneuvers and all kinds of things to react 
to, so that the air defenders could set up and defend us and so 
forth.
    And we have now come to an age where we are so used to, and 
so enabled by, that air dominance that the joint team brings to 
the battlefield, that I can't remember even talking about a 
herringbone maneuver in the last few years.
    Our situation on the ground and on the sea would change 
drastically were it not for the joint air forces that bring 
this capability. Certainly, we will all be under pressure under 
the new budget regimes, and especially if we go to a sequester. 
And I would just say that I think that without starting a long 
conversation about areas of the world where we talk about the 
paradigm of area A2AD--Anti Access Area Denial Events. So that 
our opponents build an area that is so constrictive to our 
ability to enter the area or fight in the area due to their 
ability to put up air defenses, sea defenses, ship defenses 
that keep us at range.
    That the future budget scenario which would severely 
constrict our ability to approach those requirements, those 
weapons, those new aircraft or other weapons that would give us 
a capability in this A2A2--or A2AD anti access sort of 
environment. I think that is where the pressure will be.
    And quite frankly, in some portions of the world if we are 
not able to break that A2AD environment, I believe that we will 
be in a position where we will not be able to guarantee that 
air dominance, or air supremacy, to our sea and land forces as 
we operate over them.
    Mr. Forbes. Yes. General, thank you so much for being here. 
I know you have to go, and we are excusing you from the hearing 
now. And please know how proud we are of your service, and the 
men and women who serve under you in the United States Air 
Force. And thank you for being with us today.
    General Breedlove. Mr. Chairman, thank you very much for 
the opportunity.
    Mr. Forbes. Thank you. And, gentlemen, we are not going to 
hold you very much longer. But just a couple things that we 
would like to get for the record, so that we can get to other 
members. I want to yield back to Ms. Bordallo, so we can finish 
her question that she had for the generals to answer.
    Ms. Bordallo. We will start with the general.
    General Dunford. Congresswoman, getting back to our current 
shortfalls, and then the impact of future reductions. I 
mentioned in my opening statement that our forward-deployed 
marines have all that they need with regard to training, 
equipment, and leadership to accomplish the mission. That is 
our absolute number one priority.
    The cost of ensuring that they have all that they need has 
been felt by those units back at home station. In fact, about 
two-thirds of our units that are back at home station are 
currently in a state of degraded readiness. And that, of 
course, impacts on our ability to deal with another 
contingency, or certainly the unexpected.
    There is also a cost when we come back out of Afghanistan 
to reset the force. To address those equipment shortfalls, and 
to refresh the equipment that will be coming out of 
Afghanistan. And we currently estimate that bill at about $3 
billion. In some ways that is a good news story, because a 
couple years ago that bill was in excess of $15 billion. And 
with the help of Congress over the last couple of years we have 
been able to do some resetting, even as we continue to support 
operations both in Iraq and Afghanistan.
    So as we look to the future, I would be concerned about two 
things. One, I would be concerned that we actually do reset the 
force. We actually do address those deficiencies and replace 
that equipment set that is worn out from operations in 
Afghanistan as we move to the future.
    The second thing I would be concerned about is our ability 
to continue to modernize and keep pace with modern threats. And 
over and above the reset cost, which really gets us back to the 
force that we had before we went to Afghanistan, replacing that 
equipment, we need to keep apace and modernize our equipment.
    And I would be concerned that further reductions would 
preclude our ability to modernize. And over time we would get 
back to that same state we were in, in the 1970s, where our 
equipment was antiquated and worn out. And that is exactly what 
we want to try to avoid. And again, that is one of the key 
aspects of hollowness.
    Ms. Bordallo. Thank you very much.
    Admiral.
    Admiral Ferguson. As we look at the manpower issues, the 
force is under pressure. Our average deployments, as I alluded 
to earlier, 50 percent of our ships underway are stretching out 
to about 7 months. Some ships are doing longer, in order to do 
operational commitments overseas. And so, they are under 
stress.
    And within that area we have a group of very critical 
specialists. And I am thinking of our nuclear operators, our 
linguists, our cryptologists, those involved in highly 
technical fields like acoustics and aviation maintenance and 
electronics, where, because the outside economy is presently 
not hiring to the level where they could, you know, think about 
leaving, they are staying with us.
    And my concern as we go forward into this environment, 
which echoes my fellow vice-chiefs, is concerning this element 
of keeping faith with the force that we have. And ensuring that 
we sustain their compensation in an area under high stress, so 
that should the economy--and hopefully it turns soon--gets 
better, we might lose those individuals for retention in the 
future. So the retention element is one that we watch very 
carefully.
    We are enjoying great recruiting right now from the Nation 
with the highest quality force we have ever had, and we are 
very appreciate of that. But I think in the long term manpower, 
it is our highly skilled critical specialties that we are most 
concerned about for the future.
    Ms. Bordallo. Thank you.
    From the Army, General.
    General Chiarelli. Recruiting and retention has never been 
stronger. It is just absolutely amazing, and if you would have 
told me this 10 years ago before we got into this fight, I 
would have said there is no way we could hold this together for 
10 years and have it be as strong as it is today. It is 
absolutely amazing.
    But at the same time, again, as the guy who gets the pay to 
worry about things, I also believe it is fragile. I worry about 
rotary wing aviators. That is an area, as I indicated earlier, 
that my folks are spending 12 months in theater, coming home 
for 12 to 14, maybe 15 months right now, and then right back 
down. I have got aviators that have got six and seven 
deployments. We are increasing our contracting, uniformed 
contracting corps.
    The Secretary of the Army has made a decision to add 
additional uniformed contracting specialists, officers and 
senior non-commissioned officers and warrants, to the United 
States Army even as we downsize the force, because we realize 
it is absolutely critical. And electronic warfare is also an 
area where we are adding to our rolls, even as we downsize.
    I would like to pile on to what General Dunford said. What 
really concerns me is in the modernization area. I will tell 
you, the ground combat vehicle, the infantry fighting vehicle, 
is absolutely critical for the United States Army. We are not 
talking about going into full-rate production at this 
particular time on the ground combat vehicle.
    All we are trying to do is get from milestone A to 
milestone B to see what the industry can give us at a point 
where we can make a decision 2 to 2\1/2\ years from now whether 
to go to a new build that industry brings us, while at the same 
time in that 2\1/2\-year period, we are going to look at some 
off-the-shelf solutions to an infantry fighting vehicle. And 
there are many.
    And then, when those two lines of effort converge, 2 to 
2\1/2\ years from now, we will make a cost-informed decision on 
what we can afford. But to cut that off now, to not provide us 
the ability to do that, will only put us 2 years behind a 
modernization program that is absolutely critical to the Army.
    I would argue I think we are doing the same thing with the 
JLTV, the Joint Light Tactical-Wheeled Vehicle. We are looking 
at the possibility of recapping Humvees and what that would 
cost. At the same time, we have entered into a partnership with 
the Marines and really driven down the requirements on JLTV, so 
that we believe we can buy this vehicle for somewhere between 
200 and $240,000 a vehicle.
    We have done that in partnership to drive down those 
requirements, but that, too, will enter into what they call a 
technical development phase, and it will come together with 
what is being looked at with the recap of Humvees. And there 
will come a point down the road, not probably more than 2 years 
or shorter than 2 years, where we will be able to make a 
decision on what is smarter? Do we recap Humvees, or do we go 
with a new JLTV?
    I just think it is absolutely essential that we be allowed 
to continue that critical work, or we will end up with a force 
that is not modernized. And a force that is not modernized is 
an unbalanced force, and in the end, it will cost us lives.
    Ms. Bordallo. Thank you very much. That has been very 
informative.
    General Chiarelli. Thank you.
    Ms. Bordallo. Thank you.
    Mr. Forbes. Gentlemen, one of the things that all three of 
you have talked about--and first of all, I compliment you. All 
three of your Services have done a great job in retaining your 
troops and recruiting. And I have looked and I have seen the 
pride in each of your eyes as you look at the products that you 
are able to train and turn out.
    But I also hear you using a phrase that I don't think the 
public always understands, which is ``keeping faith'' with 
those troops. And part of that keeping faith is the 
compensation package.
    And each of you told me privately it is kind of a holistic 
approach. It is more than just the dollars. It is everything. 
It is the commissaries that they go to. It is the schools that 
they use. It is the programs that they have as an overall 
package when someone sits down and determines whether or not 
they are going to re-up, or whether they are going to sign-up 
in the first place.
    But the question I have for you is if you could elaborate 
for me a little bit your concerns with this keeping faith? And 
specifically, I want to ask you this. When we had a major 
policy change recently in the military with ``Don't Ask, Don't 
Tell,'' and I am not asking you to weigh in on for that or 
against that, either one. But we did an in-depth study, 
surveys, focus groups, that were done, too, before we 
implemented that policy.
    I wonder if you could elaborate a little bit what the Army 
did, the Navy did and the Marine Corps did in terms of that 
policy, focus groups, survey, and et cetera? And then compare 
that to what we have done with the compensation packages? Have 
we done any similar types of analysis of that?
    And General Chiarelli, why don't we start with you?
    General Chiarelli. Well, we haven't, because the proposals 
have been coming from every direction. And you are so correct 
that this is a holistic review. It needs to include those 
benefits that you are going to have for medical care, 
retirement, educational benefits. They all have to be looked at 
in a holistic package, and not looked at as individual 
programs, because they are all interrelated.
    We need to do those focus groups. We need to know what the 
educational benefits mean to the 19-year-old kid coming out of 
high school, coming into the United States Army. What role did 
that play in his decision to sign up during the time of war? It 
is very interesting, when the Defense Business Board published 
their plan for looking at military retirement, the Secretary of 
the Army and the chief of staff went out and talked to 
soldiers.
    And they were expecting to get questions, based on the Army 
Times article, from captains, majors, lieutenant-colonels, and 
colonels, and senior non-commissioned officers. That wasn't it. 
They got it from a 19-year-old kid who said, ``Mr. Secretary, 
what are you doing to my retirement?''
    Now, we know the numbers. Less than 70 percent of those 
will ever reach retirement. But it leads one to believe that 
that retirement package had a role in this individual making a 
decision to join us during a time of war. And if we go back to 
what we just talked about recruiting and retention, these are 
huge in our ability to be able to maintain this force over 
time.
    So I would only echo what you say, Chairman. We really need 
to take the time to look at this. We understand it needs to be 
looked at; yes. But please, let us do it holistically, and let 
us take time to put together a total package and understand 
where that is going to take us.
    Mr. Forbes. General, I know, but for the record, how many 
years have you served in the Army?
    General Chiarelli. Just short of 40.
    Mr. Forbes. And during----
    General Chiarelli. I don't look it, do I?
    Mr. Forbes. No, you don't.
    [Laughter.]
    I would have thought 19.
    General Chiarelli. Thank you.
    Mr. Forbes. But with all of those years experience, would 
you say that it would be foolish, at least unpredictable for 
us, to begin to launch off of some of these compensation 
packages before we have done an analysis to what it is going to 
do to the force?
    General Chiarelli. Yes.
    Mr. Forbes. Admiral Ferguson.
    Admiral Ferguson. I would echo General Chiarelli's 
comments, and say that when I go out and I travel to the force 
and I visit, it is the number one question that I get. And part 
of the benefit of the review process that happened under the 
study for the repeal of ``Don't Ask, Don't Tell'' was that we 
not only did focus groups, but we allowed a very methodical 
review of the policy issues.
    An ability to socialize discussions with the force, that 
allowed people to work through and air the questions and things 
that they had about that policy development. And it was a 
pretty thorough process of both surveys, policy development and 
analysis, and communication.
    I think in an issue that is as important as retirement to 
our force, and for their decision about retention, that a 
similar type review of that thoroughness and nature would be 
important, as well as the ability to have the force be 
communicated with on the elements that are under consideration. 
I just think that is essential for the long-term viability of 
the force.
    Mr. Forbes. Thanks, Admiral.
    General.
    General Dunford. Chairman, thank you for that question, and 
I would agree with the characterization that you laid out with 
regard to compensation, General Chiarelli and Admiral Ferguson. 
And just summarize with a key point, and that is this. There 
have been many proposals about compensation that are out there 
that talk about how much money we will save. I have not seen a 
single proposal that provides the analysis on what the effect 
on the force would be.
    And at the end of the day, what compensation is about, it 
is about our ability to continue to recruit and retain the 
high-quality force that we have had in harm's way over the past 
10 years. And if you play it forward, I mean, it really is 
about a conversation that some young sergeant may have with his 
spouse a couple of years from now.
    And the spouse will say, hey, your 4 years are up, what are 
you going to do? You know, you have been deployed two or three 
times. You have been away from home 180 days out of every 365 
days. This is really hard. You are missing many of the key 
milestones of your children's lives. Are we going to stay in, 
or are we going to get out?
    And at that point, the family is going to look holistically 
at the housing, the education for their children. They are 
going to look at medical support, they are going to look at 
behavioral health support that exists. They are going to look 
at some of the intangibles like is their service valued? Do 
they have respect in the community? Do their leaders treat them 
with trust? If so, all of that is really the intangible and the 
tangible aspects that cause people to serve.
    And when we talk about compensation, we need to talk about 
it in that light. It needs to be a holistic approach to ensure 
that at the end of the day, when that sergeant has that 
conversation, that the compensation for his service and the 
value that we place on his service exceeds the challenges and 
the risks that we ask him to endure.
    Mr. Forbes. General, I am going to ask you the same 
question I asked General Chiarelli. And despite your young, 
youthful looks, how many years have you served in the United 
States Marine Corps?
    General Dunford. I have served, Chairman, a mere 35 years 
in active duty.
    Mr. Forbes. And in that 35 years with all of your 
experience and the capacity, how detrimental do you think it 
would be to your force if we launch out changing these 
compensation packages before we have done these kinds of 
reviews?
    General Dunford. Chairman, I think it would be reckless to 
make changes in our compensation packages right now without an 
understanding of the effect. And I think that each of the 
gentlemen that sit at this table and most of us all remember 
the quality of force that we had in the late 1970s. And that is 
exactly what we don't want to go back to.
    As long as our Nation has made a decision that we are going 
to have an all-volunteer force, then the critical aspect is 
that we have to make sure that the compensation meets the 
requirements of the all-volunteer force. And so whether it is 
expensive or not really is relative to what you get from it. 
And how much it costs may or may not be expensive when you 
think about it in those terms.
    And from my perspective, again, the chairman has said we 
should look at compensation. We should study compensation. I am 
not for a minute suggesting that there may not be rational and 
good changes that we might make in compensation. But again, at 
the end of the day we have to do that in a way that ensures 
that we continue to recruit and retain that high-quality force.
    And folks who lose sight of that I think are actually 
heading down a path they have no idea what is on the other end.
    Mr. Forbes. I would like to shift gears just a little bit. 
And we hear a lot of discussions, both in Congress and across 
the country today. If we were to not be forward-deployed, if we 
would pull all of our troops, all of our assets, from across 
the globe and bring them all back into the United States, that 
that would be a more inexpensive way for us to conduct our 
national defense and our foreign policy.
    General Dunford, can you tell us how that would impact the 
Marines if that was done? And whether or not you think that 
would be a good policy for us to undertake?
    General Dunford. I could, Chairman. First of all, as I 
mentioned when the Congresswoman from Hawaii asked me, you 
know, our forward-deployed and forward-based forces, you know, 
provide an unmistakable sign of our commitment, both 
economically and militarily, in a region. And they contribute 
to regional stability. Being forward-deployed and forward-
engaged, again, allows us to shape the environment, as opposed 
to reacting to the environment.
    Being forward-deployed and forward-engaged allows us to 
respond to crises in a timely manner and being forward-deployed 
and forward-engaged certainly deters, you know, our potential 
adversaries. To give you an example, from a time and space 
perspective, of the impact of going back to the continental 
United States, if you took the Third Marine Expeditionary Force 
that is currently located on mainland Japan and in Okinawa and 
soon to have elements on Guam, if you took that force and moved 
it back to the continental United States, in the event of a 
crisis or contingency, Chairman, it would take months to move 
that force to the Western Pacific and seven consecutive 
miracles in terms of synchronizing the planes, trains and 
automobiles associated with moving that force.
    Mr. Forbes. Admiral Ferguson.
    Admiral Ferguson. Just a little over a week ago we had an 
International Sea Powers Symposium in Newport, Rhode Island. 
Over 100 navies were represented around the globe and nearly 
all were chiefs of their navy that came to talk. An issue that 
they raised repeatedly was, will you still be here with us? Are 
you going to be forward and operate? And each of them in the 
various regions of the world articulated the need for stability 
against piracy.
    To provide missile defense ships, to provide a shield for 
our allies in Europe. A nuclear deterrent that is forward to be 
able to operate with our partners, the Marine Corps. To be able 
to project power both from a carrier air wing, from a 
submarine, an SSGN [Nuclear-Powered Cruise Missile Submarine], 
or from the amphibious forces. But the primary element is that 
stability and surety to our allies, and the ability to be 
forward and to respond quickly.
    The demand for naval forces forward from the combatant 
commanders has never been higher, both in Central Command and 
in the Western Pacific, but also in other regions, be it 
counter-drug or in Africa where humanitarian assistance is 
needed. Or, to support Special Forces from international 
waters. So we see that pulling back those forces and their 
presence would abdicate the Nation's maritime leadership in the 
world. And would really reduce our ability to influence, shape 
events around the globe and provide stability.
    Mr. Forbes. Thanks, Admiral.
    General.
    General Chiarelli. We understand that adjustments are going 
to have to be made to forward-deployed Army forces. But at the 
same time, we think it is absolutely critical. We think it is 
absolutely critical from an engagement standpoint. The 
relationships that are made when a young captain meets another 
captain from another Service and they grow up together in their 
own Services and have those connections back and forth are 
absolutely critical.
    Particularly in a strategy that is going to rely on the 
ability of allies to assist us. Without that forward 
engagement, that living and working and training with those 
forces, we lose so much. So I would be very, very careful at 
taking a look at just what the green eyeshade people would look 
at when they look at forward-deployed-and-stationed forces.
    I would look at some of the second and third order effects 
and the intangibles of the relationships that are built and how 
critical those relationships are in a time of crisis. It is 
always good to have someone on the other side you can call. And 
many of these engagements provide that to us.
    Mr. Forbes. One of the other discussions we have had up 
here from a lot of people, we sometimes get lost in the 
nomenclature and the syntax and people will say, well, if we 
make all these cuts we just simply have to come back and redo 
our strategy so that we can't do as many missions. The Chairman 
was kind enough to have, or smart enough, I guess, to have the 
three former chairmen testify before our full committee a 
couple weeks ago I guess it was. We had former Chairman Hunter 
and Skelton and also former Chairman John Warner from the 
Senate.
    I asked each of them what warning would you want to give to 
our committee, or to the Congress, from all of your years of 
experience. And Congressman Skelton said that throughout his 
tenure in Congress there were 13 contingencies. Twelve of those 
were not predicted. Only one of them was predicted.
    No matter what we do with our strategy in terms of changing 
that, do any of you know of a time when any of your Services 
were asked by the President of the United States to go perform 
a mission, but you said, no, we can't do it, because it is not 
in our strategy?
    General Chiarelli.
    General Chiarelli. No.
    Mr. Forbes. No.
    General Chiarelli. And I will give you an example from my 
own career. When I was a division commander I spent a year in 
Iraq. I came back and went into a reset phase. I was back for 3 
months when Katrina hit the continental United States. I was 
told at a time when I was at the lowest readiness level of 
probably any unit in the United States Army, to pick up a 
brigade and send it to New Orleans from Fort Hood, Texas, 
within 24 hours.
    When I asked the question, are you kidding me? We just got 
back from Iraq, I was told, you don't understand. You pick up 
your brigade, you be in New Orleans in 24 hours. We will never 
fail you. We will always do it. But if we are not trained, if 
we are not equipped, if we don't have the proper force 
structure, the results will not be good. They will not be good.
    Mr. Forbes. And General Chiarelli, would it be fair to say 
that when you say the results would not be good, that includes 
the number of men and women that come back from----
    General Chiarelli. And that is exactly what I was trying to 
show in my historical examples of the Kasserine Pass and Task 
Force Smith. No one ever said, no, we are not going to take 
Task Force Smith into Korea. They said ``Roger, we will do 
it.'' But they went in with incomplete infantry battalions, a 
poorly equipped and trained force, and they took 40 percent 
casualties.
    That is what happens. We will never say no. That I think we 
all will promise you. But the key is the results when we do 
that mission.
    Mr. Forbes. Admiral Ferguson.
    Admiral Ferguson. I would echo that. In the history of the 
Nation we have never said no and we won't say no into the 
future. And so, you know, our forces forward, they will be as 
ready as we can make them. And we will operate forward. We will 
be ready and we will take risk at home, rather than in any way 
keep the forces that we have able to achieve the mission.
    Mr. Forbes. Would you agree that if that risk is increased, 
that risk means the risk of the number of men and women that 
may come back from that mission, if we send them in unprepared 
and unready?
    Admiral Ferguson. I think all of us in the Service accept 
that risk as part of the business of wearing this uniform and 
serving the Nation. And we accept that as part of the calculus, 
and that our mission as leaders is to make them as ready, to 
give them the equipment and minimize that as much as possible.
    Mr. Forbes. General Dunford.
    General Dunford. Chairman, saying no to the commander in 
chief is not in our DNA. We will never do that, we never have. 
I would agree with what you and General Chiarelli and Admiral 
Ferguson said. We will never say no, but if we do go into 
harm's way without adequate equipment, without adequate 
training, without adequate leadership, the cost of going into 
harm's way without being ready, which is what we have 
articulated here today, is the requirement to keep our forces 
at a high state of readiness, not to have hollow forces, to be 
prepared for the unexpected.
    But the cost of going into harm's way without having been 
attentive to balanced readiness is absolutely the cost of young 
Americans.
    Mr. Forbes. And one of the things that I mentioned that we 
asked the former chairman was if you could give us one warning 
about these cuts that are coming down, the things that would 
happen. What would the warning be that you would give to this 
subcommittee, that we could give to the full committee, that we 
could give to Congress, from all of your years of experience? 
What concerns you most?
    And with that, please feel free at this time to tell us 
anything that we have left out that you feel you want to get on 
this record, so that we can give you that opportunity to do 
that.
    And then I am going to wrap up by letting the Chairman and 
Ms. Bordallo have any final comments that they might want to 
make.
    Anybody want to start?
    General Chiarelli. My biggest fear is that we will not be 
able to--and we understand we are going to have to downsize the 
Army. We already know we are going to 520--520,000--that is in 
the books, 27,000 in force structure and 22,000 in a temporary 
end-strength increase. I am concerned about losing the entire 
temporary end-strength increase, because I have such a high 
number of individuals that are in the disability evaluation 
system and it is taking me way too long to get through that.
    I won't go into it in great detail, but I would hope 
someday we will look at the disability evaluation system, and 
look to design a system built for an All-Volunteer Force, 
rather than a system that currently is built for a conscript 
force. I think that is a huge issue out there when it comes to 
readiness that we have to look at.
    But my fear is we won't do this in a balanced way. Whatever 
size force we have at the end has got to be modernized, it has 
to be well trained and maintained. That is absolutely critical. 
And besides shrinking our force, the real mistake we have made 
in the past is to take some kind of solace in the fact that 
from the Army's standpoint we maintained a force structure of 
X, you name it.
    After World War II it was 530,000 folks. But it wasn't the 
size of the force that got Task Force Smith into trouble. It 
was the modernization of that force and the training of that 
force that got it into trouble. That is what caused the 
problem. That is what caused the 40-percent casualty rate.
    So I just ask, as we look at this, that we do it with those 
three rheostats that I talked about earlier on, that we look at 
force structure, we look at modernization, and we look at 
training and maintaining that force. And ensure that whatever 
size the Army is at the end of this thing, that it is a well-
trained, modernized force that can do what the Nation asks it 
to do.
    Admiral Ferguson. I firmly believe America is a maritime 
nation faced by two oceans, and our prosperity and our standing 
in the world in many ways is ensured by the naval forces that 
we are able to deploy forward.
    Around the globe, potential competitors are working to 
negate that advantage through anti-access aerial denial 
capabilities, and we have to be able to pace that in the 
modernization of our forces as we go forward.
    Our allies and our friends look to us to provide stability 
in the global common that is the sea. And we have assured them 
that we are committed to do so. And I think that is an 
important point of our security as we go forward.
    As I think about the future, the element of balance within 
the naval portfolio is important. It is about ensuring the 
forces that we have, whatever level that we set on those from 
the strategy and the fiscal environment, are extraordinarily 
capable to meet that threat, they are able to be forward, they 
are ready with adequate weapons, people, training, such that it 
delivers to the President and to the Nation options that he can 
use forward, away from our shores.
    As I leave you with, you know, thoughts or things that 
really affect me, I had the occasion to attend the memorial 
service for the SEALs [Sea, Air, and Land teams] who were 
killed in that crash in Afghanistan. And the strength of their 
families and the commitment of those individuals who are 
operating on a 700-day cycle, and they are gone for about 500 
days of it, they have been doing this for 10 years of war, that 
core of people in the United States who are willing to raise 
their right hand and serve, to me we can never lose that. And 
that is the most essential element.
    Thank you.
    Mr. Forbes. General Dunford.
    General Dunford. Chairman, what concerns me is really what 
I opened up with, and that is that we will make these cuts 
without an adequate appreciation of the strategic implications, 
the implications on our readiness, or the implications of 
breaking faith, as Admiral Ferguson talked about.
    And also, what concerns me is that folks would think that 
if we get it wrong, well, we can just simply fix it in a year 
or two. That is not possible, particularly in the latter 
category. And if we break the trust of our marines, sailors, 
soldiers and airmen today, it would be decades before we get it 
back.
    And so, some of the decisions that we make, both from an 
industrial base perspective, but as importantly, from a human 
factors perspective, the decisions we can't possibly get wrong. 
We are not going to get it exactly right, but we can't afford 
to get it wrong. And so, I am concerned about those two things.
    And I think probably the last thing is that people would 
assume that if the United States of America reduces in 
capability, well, someone else will just be out there to pick 
up the slack. Chairman, I don't know who that would be. And I 
think who will pick up the slack are people who do not have 
interests that are consistent with the United States of 
America.
    And I think we will assume extreme risk in regions that are 
critical to the United States if we are not there, we are not 
forward-deployed, we are not forward-engaged, we are not 
assuring our allies, and we are not deterring our potential 
foes. Those are the things that concern me.
    Mr. Forbes. Thank you, General.
    And we have been joined again by our Chairman. I would just 
like to ask if he has any follow-on final questions or comments 
he would like to offer.
    The Chairman. Yes, thank you, Mr. Chairman.
    Not to drag this out, but I had a call several weeks ago 
from a young man that I watched grow up. His dad is a good 
friend of mine. And he is an Air Force officer. He is a 
physician stationed down in San Antonio. And I guess he had 
been talking to his dad, and his dad told him to call me. And 
he said he has been in 12 years, he is looking at re-enlisting, 
and he wanted to know what can I expect? What is my future? 
What will be my retirement? He is enjoying the service, but he 
is very concerned.
    And I couldn't tell him. You know, I don't know what his 
future is, because I don't know where all of this that we are 
going through. And I was down at Camp Lejeune a couple of weeks 
ago, and I was visiting with some marines and their wives. The 
wives spoke up. And they are very concerned. Same questions. 
You know, what happens on--can we look forward to a career?
    I have seen this. I have seen this movie before. When I was 
pretty new in the Congress, I was going up to visit West Point, 
and I had a lieutenant colonel with me. They don't let us go 
anywhere alone. And his dad had been the chief of the Army. No, 
his grandpa had been the chief of the Army. His dad had been 
the youngest brigadier in the Army. And then he suffered a 
stroke, and that ended his career.
    And this lieutenant colonel, his whole life, that was all 
he ever wanted to do was serve in the military, and he was 
being ``RIF'd'' [Reduction in Force], because his class at West 
Point--they were about 3-year class--this was the drawdown 
under Bush and Clinton earlier in the 1990s. And he didn't want 
to leave. And he didn't have a choice.
    And when we got to West Point, we were greeted by a 
lieutenant colonel there, and he was also being RIF'd. It 
didn't matter as much to him. I mean, he didn't want to leave, 
but it--to the first guy, it meant a lot. And, you know, I 
thought, that does break faith, as far as I am concerned. You 
start somebody out on a career, you send them to West Point or 
Annapolis, or Air Force Academy, and you make certain promises, 
and then you break those promises, that is basically what has 
happened.
    And then I think about these young men that are going 
outside the wire over in Afghanistan every day on patrol and if 
they are having to think about what is happening about my 
future, instead of concentrating on IEDs [Improvised Explosive 
Device], or on snipers, or on ambushes, or just not being able 
to be totally focused on their job. That puts them at risk 
today, needlessly.
    And I just--I----
    Mr. Forbes. Mr. Chairman, we thank you for those comments 
and for that passion that you have for our men and women who 
serve in our military.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I want to thank General Dunford for his comments about the 
Pacific area and how important it is that we continue to 
increase our force structure. This is a troubled area. And, Mr. 
Chairman, Mr. McKeon, and our Chairman of our subcommittee, I 
live there. That is my home. And I want to know that we 
Americans living in Guam and other islands surrounding us are 
protected.
    And to all of you who gave us information this afternoon, I 
found it very valuable and how important it is to keep up the 
strength of our military forces.
    Thank you, Mr. Chairman.
    Mr. Forbes. Gentlemen, too, all three of you, we thank you 
for your service to our country, for the men and women who 
serve under you. And I think you can tell from listening to 
your testimony, you can tell from listening to the comments up 
here, this is not just about procurement. It is not just about 
aircraft carriers. It all does come down to individuals and 
those men and women who serve under you.
    All of us have those stories, stories that make this very, 
very real. Mine was a young Marine, Colby Childers. Cody, all 
he wanted to do from the time he was 11 was serve in the Marine 
Corps. When he was 18, he became a Marine. When he was 19, I 
was speaking at his funeral.
    And Colby had two tattoos. One of them was an American 
flag, red, white and blue. And one of them was his family. And 
I was thinking at that funeral, as I looked, this is the 
absolute best that America has to give.
    And one of the things that we have got to make certain of, 
General Chiarelli, you mentioned it, we don't break that faith, 
that we continue that. Because, Admiral Ferguson, as you 
mentioned, if we lose those people, if we lose those families, 
this country has a tough, tough road for us to travel down.
    And so, I think you can tell from this subcommittee we 
don't plan to go quietly in the night. We plan to fight as much 
as we can to make sure you guys never have a fair fight. We 
don't want you to have a fair fight. And we want to make sure 
the men and women who serve under you, who raise their hand, 
that we are keeping that faith with them. And that we are 
making sure they are the best-trained, best-prepared, best-
equipped military in the world.
    And thank you for your careers and helping to make that 
happen. And thank you for giving us a record that we can share 
with other members of Congress to help make that a reality.
    So thank you.
    And with that, we are adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                            October 27, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 27, 2011

=======================================================================

      
                   Statement of Hon. J. Randy Forbes

               Chairman, House Subcommittee on Readiness

                               Hearing on

                   Readiness in the Age of Austerity

                            October 27, 2011

    I want to welcome all of our members and our distinguished 
panel of experts to today's hearing focused on how we maintain 
readiness in an age of austerity.
    I want to thank our witnesses for being with us this 
morning. I know several of you had to cancel long-standing 
personal commitments to be with us this morning, and I 
appreciate your willingness to testify before this subcommittee 
once again on this most important topic.
    I believe it is vital that you are all here with us today, 
as I suspect this is one of the last opportunities for members 
of this subcommittee to hear from the Services on the impacts 
of the Budget Control Act before the ``super committee'' 
delivers its recommendations to the Congress.
    All this year we have been exploring our current state of 
readiness and discussing how we remain prepared to meet the 
challenges we are likely to face in the future.
    In July we explored our numerous challenges to readiness 
and the difficulties we face in meeting COCOM requirements with 
a force that Gen. Breedlove referred to as ``on the ragged 
edge.''
    Today we again explore readiness in the context of the 
Budget Control Act of 2011 (BCA) and its potentially disastrous 
effects on our military. While there seems to be a prevailing 
consensus that sequestration under the BCA would be devastating 
to the military, I remain concerned that we may have already 
gone too far.
    Over the last 20 months, the Department has reduced its 10-
year budget authority by $754 billion from the levels submitted 
with the President's budget for Fiscal Year 2011.
    It has already cancelled many of its most advanced systems 
like the CG(X) next-generation cruiser program, the F-22, the 
Army's Future Combat Systems, and the transformational 
satellite program (TSAT), among others.
    DOD has also already made tough decisions on force 
structure and civilian personnel, shrinking the Marine Corps by 
more than 15,000 marines, the active Army by 49,000 soldiers, 
and freezing DOD civilian jobs at FY10 levels.
    In short, for the past couple of fiscal years DOD has been 
doing its part to reduce Federal spending. Tough choices have 
already been made and the low-hanging fruit harvested.
    The fact is, we now face strategic uncertainties. 
Uncertainties such as whether the U.S. can maintain its proud 
tradition of air superiority or whether the vital amphibious 
capability of the Marine Corps is sustainable.
    No doubt, there are many contributing factors that got us 
where we are today. Many tough decisions still lie ahead, but 
we all have a responsibility to ensure our men and women in 
uniform are given all the tools necessary for the job we have 
asked them to do.
    I look forward to learning more about the real-world 
impacts of the decisions we make here in Washington and hearing 
from our witnesses about how we cope with these challenging 
fiscal times while also maintaining a robust and capable 
military.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 27, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY

    General Breedlove. The C-27J program is currently in the Low Rate 
Initial Production phase. A Full Rate Production (FRP) decision review 
was planned for June 2011, but was postponed in order for the Air Force 
to consider options to reduce program life cycle costs. The FRP 
decision remains on hold, pending the outcome of internal Department of 
Defense programmatic and budgetary deliberations. [See page 16.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HANABUSA
    General Chiarelli. Over the past decade the Army has transformed 
from a forward-deployed Army to an expeditionary Army capable of 
providing the critical land component element of the Joint Force. The 
Army has developed two specific expeditionary capabilities.
    The Army's contribution to the Nation's Global Response Force (GRF) 
consists of an Airborne Infantry Brigade Combat Team. This unit is 
trained to execute a full spectrum of missions from fighting a modern 
nation state military to conducting security force assistance with our 
allies to providing humanitarian assistance. The Army provides a 
tailored package of enablers to augment the Brigade Combat Team (BCT) 
and ensures it has all the required capabilities to accomplish its 
mission. In total, the Army's GRF consists of 8000 soldiers ready to 
deploy on short notice. In conjunction with its joint partners, the 
Army is prepared to deploy the GRF wherever the Nation's interests 
require it.
    In addition to the GRF, the Army has developed a sustainable 1-5-
20-90k expeditionary capability. This expeditionary force consists of a 
Corps Headquarters, 5 Division Headquarters, 20 BCTs and a tailored 
package of 90,000 enablers that can be sustained anywhere in the world 
indefinitely with a partial mobilization of the Reserve Component, the 
Total Army expeditionary force is a vital component of national 
strategy. This is the capability the Army has deployed successfully to 
Iraq and Afghanistan for the past decade. The downsizing of the Army 
will reduce the size of the force but the capability will be sustained 
as the land component of the Joint Force. [See page 22.]

    Admiral Ferguson. Naval expeditionary forces are comprised of four 
distinct pillars that combine capabilities to project power on land; 
Amphibious Warfare, Mine Warfare (MIW), Navy Expeditionary Combat 
Command (NECC), and Naval Special Warfare (NSW). Naval expeditionary 
forces are manned, trained, equipped, and task-organized to support 
operations from the sea. Unlike garrison forces, maritime expeditionary 
forces provide the United States an asymmetric advantage by conducting 
forward presence and force employment from international waters. This 
capability has been tested across the full spectrum of operations to 
include: Non-Combatant Evacuation in Lebanon; Humanitarian Assistance/
Disaster Relief in Pakistan/Japan; Tactical Recovery of Aircraft and 
Personnel in Libya; Anti-Piracy operations off the coast of Somalia, 
and combat operations in Afghanistan. The Navy's fleet of amphibious 
ships--LHA, LHD, LPD, and LSDs--enables Navy and Marine Corps forces to 
sustain forward presence, exert sea control over large areas, and 
project power ashore. These survivable ships are equipped with rotary 
and fixed wing aviation capabilities, surface assault landing craft, 
assault forces, logistical sustainment, and joint command and control 
capabilities. The agility and forward presence of naval expeditionary 
forces provide combatant commanders flexible options and the ability to 
rapidly employ forces in access denied areas. Additionally, forward-
deployed naval expeditionary forces are engaged in building partner 
capacity with our coalition partners and allies across the globe. The 
Navy's mine warfare capability includes support to operational 
commanders with deployable staffs and operational/contingency plan 
development, focusing efforts across numerous organizations and 
operational commands to ensure Navy-wide competency in MIW. NECC 
provides rapid deployable and agile expeditionary forces to warfare 
commanders in support of maritime security operations around the globe. 
NECC's capabilities include: Explosive Ordnance Disposal (EOD), 
Riverine, Naval Construction (Seabees), Maritime Civil Affairs and 
Security Training, Expeditionary Intelligence, Expeditionary Training 
Group, Expeditionary Guard Battalion, Mobile Diving and Salvage, 
Maritime Expeditionary Security, Expeditionary Logistics, and 
Expeditionary Combat Readiness. It is comprised of several different 
organizations and includes both active duty and reserve mission 
specialists. NSW prepares and deploys individuals, elements and forces 
with capability across the spectrum of defense, from cooperation to 
combat, to meet the exercise, contingency, and wartime requirements of 
the regional combatant commanders, theater special operations commands, 
and numbered fleets located around the world. NSW forces are comprised 
of Special Warfare Operators (SEALs), Special Warfare Boat Operators 
(Special Warfare Combatant-craft Crewmen--SWCC), and support personnel. 
While these forces are directly in support of operations ashore, all 
naval forces to include carriers, cruisers, destroyers, submarines 
(SSGN) are considered expeditionary in that they are rotational and 
project power ashore. Navy welcomes the opportunity to provide an in 
depth brief of both the composition of its expeditionary forces as well 
as a concept of operations in support of the Committee's desire to 
fully understand this most important naval capability. [See page 22.]

    General Dunford. During recent testimony you asked me to describe 
the composition of an expeditionary force. I am pleased to do so and 
appreciate your interest.
    Expeditionary forces possess the capability to deploy to an area of 
interest, to provide presence or response, and sustain themselves 
without extensive reliance on host-nation support or overseas 
infrastructure. They can survive and thrive under austere conditions. 
They are flexible and adaptable, and have the ability to withdraw from 
an operation, reorganize, and deploy to a different operation, all 
without returning to their home stations.
    Marine Corps Air Ground Task Forces (MAGTFs) fit the definition of 
expeditionary forces. They are established for specific missions, or in 
anticipation of a wide range of possible missions. They have long 
provided the United States with a broad spectrum of response options 
when U.S. and allied interests have been threatened, be it from human 
aggression or natural disasters. Selective, timely and credible 
commitment of expeditionary air-ground units have, on many occasions, 
helped bring stability to a region and sent signals worldwide to 
aggressors that the United States is willing to defend its interests, 
and is able to do so with a significantly powerful force on extremely 
short notice.
    MAGTFs are organized around four organic elements: command, ground 
combat, aviation combat, and logistics.
    The Command Element contains the MAGTF headquarters and 
complimentary units that provide intelligence, communications, and 
administrative support. It provides the command and control essential 
for effective planning and execution of operations, and it synchronizes 
the actions of each of its subordinate elements.
    The Ground Combat Element (GCE) provides the over-land combat power 
of the MAGTF. It can include infantry, artillery, reconnaissance, 
engineer, armor, light armor, assault amphibian, and other forces as 
required. The GCE can vary in size and composition. It can consist in 
many forms from of a light, air-transportable battalion up to a 
relatively heavy and mechanized unit of one or more divisions.
    The Air Combat Element (ACE) provides a surveillance platform, lift 
capability, assault support and close air support. It is formed around 
an aviation headquarters with appropriate air-control agencies, in 
addition to fixed and/or rotary wing aircraft units and air defense 
units. An ACE can have a diverse mix of aircraft; from F/A-18 and AV-8B 
jets to MV-22 tilt-rotor aircraft to AH-1, UH-1, and CH-53 helicopters.
    The Logistics Combat Element provides the supply and maintenance 
support, ensuring the MAGTF's readiness and sustainability. It enhances 
the mobility of the unit and allows the unit to establish architectures 
that don't exist such as expeditionary runways. Its capabilities 
include supply, maintenance, transportation, explosive ordinance 
disposal, military police, water production and distribution, medical 
and dental services, fuel storage and distribution, to name a few.
    A MAGTF does not have a specific roster of equipment because, by 
its very nature, it is scalable and task organized. To give you an idea 
of the equipment that comprises a MAGTF--the Marine Corps has seven 
rotating MAGTFs called Marine Expeditionary Units (MEUs). MEUs are the 
smallest of the standing MAGTFs. They typically deploy with 
approximately 200 marines in their Command Element, 1,200 in their 
Ground Combat Element, 500 in their Air Combat Element, and 300 in 
their Logistics Combat Element. Their major equipment items include 
M1A1 tanks, M777 Howitzers, assault amphibian vehicles, high mounted 
mobile wheeled vehicles, light armored reconnaissance vehicles, 7-ton 
trucks, MV-22 Ospreys, CH-53 E Super Stallion helicopters, AH-1W Super 
Cobras, UH-1N Hueys, AV-8B Harriers, and KC-130s.
    Three critical components of naval expeditionary forces that 
support MAGTFs are Navy ships, pre-positioning ships, and connectors. 
Amphibious ships such as LHDs, LPDs, and LSDs give Marine Corps 
expeditionary forces staying power by providing sovereign territory to 
operate from at sea, and logistical sustainment obviating the 
requirement for host nation support. Ships allow the U.S. military to 
operate in areas without fixed bases. Pre-position ships allow 
expeditionary forces to fall in on equipment already in the region. 
Connectors, such as LCACs and LCUs, enable expeditionary force 
personnel and equipment to embark on and debark off ships.
    Thank you for your interest in our expeditionary force construct. 
Please let me know if you have further questions. [See page 22.]

    General Breedlove. Our expeditionary task force organizes 
capabilities from across the Air Force to provide combatant commanders 
with forces tailored to meet their specific requirements. Currently, 
the expeditionary Air Force forces, comprised of squadrons, groups, and 
wings, are filled by individuals or small teams from across the Air 
Force, forming an Air and Space Expeditionary Task Force (AETF). While 
this composition has served us well for the past 10 years, we realize 
our expeditionary force presentation must evolve to better respond to 
global crises.
    Therefore, in the future, the Air Force will present its 
expeditionary forces in terms of capability-based Airpower Teams 
(APTs). The APTs will account for all elements of combat airpower, to 
include the enabling functions of the Air Force, and will provide the 
following expeditionary capabilities to the combatant commander: 
strike, mobility, command and control, intelligence and surveillance 
(C2ISR); space and cyberspace; special operations; and agile combat 
support. The AETF will still be formed by squadrons, groups, and wings, 
but will be filled by right-sized, capability-based APTs who train and 
deploy together, thus improving the stability, predictability and 
visibility for Airmen fulfilling Combatant Commander requirements. [See 
page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 27, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Earlier this month, Army Chief of Staff GEN Raymond 
Odierno said that the Army's end strength will likely shrink below the 
preferred size of 520,000 soldiers that set before the Budget Control 
Act was enacted. Given today's strategy, would you be able to 
effectively prosecute your mission with a force of 500,000 or smaller?
    General Chiarelli. The reduction in end strength will challenge the 
Army's ability to project land power and execute Decisive Action in 
many of the world's potential hot spots. This reduction will reduce the 
Army's ability to build partnership capacity, to prevent and deter 
conflicts, and protect American and Allied interests. The Army expects 
an impact on its forward engagement presence and its ability to sustain 
any long duration stability and support operations. The Army will 
respond to any contingency that threatens our Nation and our way of 
life, however, our ability to rapidly respond simultaneously will be 
limited and could place our Soldiers and allies at risk. As the Active 
Army decreases in size, the lesson of Task Force Smith must not be 
forgotten. In post-World War II defense budgets, the Nation failed to 
provide the resources required to enable the Army to adequately train, 
equip, and organize itself for battle. The parallel between Task Force 
Smith and now is most compelling. As a nation, if we fail to fully 
resource the training, manning and equipping accounts for the Army that 
remains, our Soldiers will pay the price in battle. The Army will 
always answer the call, but the cost like in Korea in 1950 will be high 
if the readiness accounts are not properly resourced. The current 
strategy requires an Active Army that is more responsive to rapid 
deployment. The requirement for an immediate response is the 
justification for fully resourcing the Army's readiness accounts for 
the Active and Reserve Component. As the early deployers are beginning 
movement, key decisions on mobilizing the Reserve Component and 
increasing Active Component readiness out of the reset pool must be 
made in order to provide a sustained force presence.
    Mr. Forbes. What impact to training (i.e. training miles, flying 
hours, training ammo, spares, etc.) will the Budget Control Act have? 
How would sequestration affect this important component of readiness?
    General Chiarelli. Based on Budget Control Act required funding 
level, the Army will potentially have to reduce the Ground Operations 
Tempo (OPTEMPO) and Flying Hour Programs. This can impact on the Army's 
ability to provide units trained for Decisive Action by reducing funded 
miles and crew hours, thereby curtailing the number and intensity of 
training events at home stations and at the Combat Training Centers. 
This reduction in training would result in a reduced demand for 
purchase of repair parts and would reduce required repairs of Depot 
Level Reparable components and the workforce required to make those 
repairs. The Army may have to curtail units scheduled to train at the 
Combat Training Centers or send only portions of those units, limiting 
the training value derived from training with world class Opposing 
Forces, detailed and impartial After Action Review from the Observer 
Controllers, and a robust Contemporary Operating Environment enabling 
concurrent and simultaneous training in multiple environments against 
hybrid threats. As a consequence, the Army could be challenged to 
prepare for contingencies across the spectrum of conflict and may 
require more time to prepare larger formations for deployment to meet 
strategic objectives.
    Budget Control Act reductions could also impact the Army's ability 
to execute home station individual and collective gunnery training by 
limiting the availability of ranges and deferring replacement of 
damaged targets. Range modernization efforts may be impacted as the 
construction footprint of several military construction (MILCON) 
projects will not have Unexploded Ordnance clearance completed. 
Reductions to Mission Training Complex capabilities could limit 
Battalion, Brigade, Division, and Corps staff proficiency on their 
mission command systems in a realistic training environment. Training 
Support Centers may not be able to provide Instructor/Operator support 
for numerous complex virtual trainers, including for flight simulators 
and support for Medical Simulation Training.
    Budget Control Act reductions may also impact on the Army's 
Institutional Training capability to conduct Initial Military Training 
and critical functional skills training. This could result in a back 
log of recruits awaiting training at the institutional training base. 
Soldiers may not receive duty specific skill training required by the 
Soldier's unit thus contributing to degradation in unit readiness. 
Additionally, funding reductions may impact the Army's ability to 
develop agile and adaptive leaders at all levels by reducing the Army's 
capacity to conduct Professional Military Education.
    Mr. Forbes. If sequestration severely degraded our depot 
maintenance capability, how would that impact your ability to 
successfully prosecute your mission as it stands today?
    General Chiarelli. With sequestration, we estimate depot 
maintenance funding would support only 50% (or less) of Depot 
Maintenance Requirements. This would have a detrimental impact on the 
overall readiness of the Army and our ability to meet current and 
future contingency operational requirements. A 50% funding level 
reduces the Army's ability to sustain critical organic depot core 
capabilities. This funding level would require the Army to reassess and 
rightsize the workforce, leading to releasing all contractor and 
temporary/term Government employees who were hired to support critical 
wartime surge requirements. It is likely the Army will need to release 
some permanent employees who possess the critical workforce skills 
necessary to support our current wartime requirements. These workforce 
reductions would degrade the Army's ability to surge in support of 
future contingency operations.
    Mr. Forbes. If sequestration were to occur, my understanding is 
that every discretionary account would be cut equally. What are the 
repercussions of a cut of such a large magnitude and indiscriminate 
nature? How does it affect the All-Volunteer Force?
    General Chiarelli. Although equal, across-the-board cuts would only 
apply to Fiscal Year (FY) 13, the magnitude of cuts under sequestration 
to both military and civilian force structure, readiness, and 
modernization would be devastating. The indiscriminate nature of these 
large and arbitrary cuts in FY13 does not allow the Army to provide the 
necessary flexibility to react to the uncertain security environment.
    Overall, such reductions would result in lower readiness levels of 
units, adversely impact our modernization efforts, and degrade the 
defense industrial base. Moreover, we risk breaking faith with our 
Soldiers and their Families who have performed superbly over ten years 
of continuous conflict. Sustaining the all-volunteer force is 
absolutely essential for the Army's ability to support our Nation's 
defense.
    Mr. Forbes. Since the FY11 budget submission, the Department has 
seen its budget erode through H.R. 1, the ``Budget Control Act,'' the 
$178 billion efficiencies initiative, and most recently, OMB guidance 
for FY2013 that holds spending at FY2010 levels. Many would argue that 
the military has already done its share for deficit reduction. Do you 
agree with that assessment? Should DOD be immune from further cuts?
    General Chiarelli. While recognizing the Nation's deficit 
challenges, it is imperative that any future reductions to Army's 
budget be based on comprehensive strategic analysis. Further we must 
ensure that we preclude hollowing the Army by maintaining balance in 
force structure, readiness, modernization efforts, and commitments to 
the all-volunteer force. The Army will take a comprehensive approach 
towards executing these potential cuts to ensure we do not create a 
hollow Army.
    Mr. Forbes. How would a long-term CR further exacerbate the cuts 
prescribed under the Budget Control Act?
    General Chiarelli. Acquisition strategies and military construction 
projects generally avoid contracting efforts (new start, production and 
construction contract awards) in the 1st quarter of any fiscal year due 
to the likelihood of a CR. Additional CR's that extend into the 2nd 
quarter of FY12 may impact the Army's investment strategy. 
Additionally, the lack of an appropriation holds the Army to draft 
congressional language, which includes rescissions (reductions to prior 
year funding) and marks (reductions to current year requests). Finally, 
there would be no funding for expansion of ongoing programs, new 
starts, or new multiyear procurements using advance procurement 
funding. The results would be limiting procurement to last year's 
efforts, no ability to assimilate new technologies against an evolving 
enemy, or gain efficiencies through economic order quantities.

    Mr. Forbes. What impact to training (i.e. training miles, flying 
hours, training ammo, spares, etc.) will the Budget Control Act have? 
How would sequestration affect this important component of readiness?
    Admiral Ferguson. Should sequestration occur, it is expected to 
have an adverse impact on Navy training. In general, we will experience 
reduced flying hours and steaming days, with a resulting decrease in 
overall readiness and operational capability of the force. Reductions 
in our training accounts will limit the ability of our forces to meet 
combatant commander requests for forces in a timely manner.
    Mr. Forbes. If sequestration severely degraded our depot 
maintenance capability, how would that impact your ability to 
successfully prosecute your mission as it stands today?
    Admiral Ferguson. Reduced depot maintenance would adversely impact 
mission readiness and our industrial base. While the Navy's approach of 
``resetting in stride'' between deployments has enabled it to maintain 
an acceptable and stable overall readiness posture, the current 
increased demand has compressed the time to execute intermediate-level 
and unit-level maintenance. If sustained, reduced funding for 
maintenance would decrease the service lives of our ships and aircraft 
as well as increase maintenance expenses over the long term. Reductions 
over the long term in maintenance funding would reduce our industrial 
base, as there would be insufficient work to sustain our private sector 
repair yards. A reduction in capacity would limit our ability to both 
prevent maintenance backlogs and recover from them in the future.
    Mr. Forbes. If sequestration were to occur, my understanding is 
that every discretionary account would be cut equally. What are the 
repercussions of a cut of such a large magnitude and indiscriminate 
nature? How does it affect the All-Volunteer Force?
    Admiral Ferguson. Sequestration applies uniform percentage cuts to 
each ``program, project, and activity'' which means that every weapons 
program, research project, and military construction project will have 
to cut by an equal percentage. Under current law, the Department of the 
Navy is not granted the discretion to adjust or prioritize these 
reductions causing our readiness and procurement accounts to face a 
reduction of about 18 percent. This reduction would increase to 
approximately 25 percent in the event military personnel funding is 
exempted from full sequestration. The size of these cuts would 
substantially impact our ability to resource the Combatant Commander's 
operational plans and maintain our forward presence around the globe. 
The Navy will continue to be able to perform its missions but will be 
smaller--and less globally available--than the Navy today. With fewer 
ships, response times to crises will be longer, non-deployed forces 
will be less ready and sustained naval presence will not be possible in 
some regions. The development of new capabilities will be slowed and 
the fleet may be unable to overcome improvements by our potential 
adversaries in their efforts to deny Joint operational access.
    With this magnitude of reduction, the Navy would face severe and 
long-lasting impacts:

        <bullet>  Programs involving a purchase, such as construction 
        of a ship, submarine, aircraft, or building, could not be 
        executed as currently programmed. Cuts of this nature would 
        result in the breaking of existing multiyear contracts, and 
        could severely disrupt our suppliers and the industrial base;

        <bullet>  Reduced funding for other weapons procurement 
        programs would drive up unit cost, resulting in reduced 
        quantities and delivery delays;

        <bullet>  Research and development programs would be delayed or 
        cancelled;

        <bullet>  Flying hours and steaming days would be reduced;

        <bullet>  Selected depot maintenance availabilities would be 
        cancelled;

        <bullet>  Civilian personnel would be at risk for furloughs; 
        and

        <bullet>  Funding for readiness and training would be reduced.

    All of these cuts would affect our all-volunteer force with 
reductions in training, extended deployment cycles, postponement of 
facilities restoration and modernization projects on our bases, 
curtailment of all non-readiness travel, and degradation of facilities 
service levels.
    Mr. Forbes. Since the FY11 budget submission, the Department has 
seen its budget erode through H.R. 1, the ``Budget Control Act,'' the 
$178 billion efficiencies initiative, and most recently, OMB guidance 
for FY2013 that holds spending at FY2010 levels. Many would argue that 
the military has already done its share for deficit reduction. Do you 
agree with that assessment? Should DOD be immune from further cuts?
    Admiral Ferguson. We recognize the fiscal challenges facing our 
Nation. It is clear that, particularly in this environment, the Navy 
must use its resources in the most efficient manner possible to achieve 
the maximum return on investment to the U. S. taxpayer. Additional 
reductions to DOD funding should be based upon our national security 
strategy and balanced against the other demands for federal funding.
    Mr. Forbes. How would a long-term CR further exacerbate the cuts 
prescribed under the Budget Control Act?
    Admiral Ferguson. The combination of a long-term Continuing 
Resolution (CR) and the budget cuts prescribed in the Budget Control 
Act would have significant impact on our operations and manpower 
accounts due to our limited ability to recover deferred work and 
actions in future fiscal years.
    Military Personnel, Navy (MPN) funding is our most significant 
challenge under a CR. Near term effects will be the deferral of nearly 
all PCS orders not associated with separations or retirements starting 
in January, 2012. If we operate under a full year CR for FY12, we will 
have shortfall of approximately $1.6B in our pay accounts. To overcome 
this shortfall, our primary recourse would be an Above Threshold 
Reprogramming (ATR) to shift funds from procurement and readiness 
accounts into MPN because there is not sufficient flexibility in our 
manpower account to accommodate the entire shortfall.
    As the length of time the Navy must operate under a CR in FY 12 
increases, the flexibility to manage our Operations and Maintenance, 
Navy (OMN) accounts decreases. This shortfall may be mitigated, but not 
without consequences. Actions we will be forced to take include the 
deferment of depot maintenance on our ships and aircraft, postponement 
of almost all facilities restoration and modernization projects on our 
bases, civilian hiring freezes and reduction or cancellation of bonus 
programs, reductions in post-deployment training phases, curtailment of 
all non-readiness travel, and degradation of facilities service levels. 
If we operate under a full year CR for FY12, we face an OMN shortfall 
of approximately $2.6B.
    For our investment programs, long-term operation under a full year 
CR for FY12 will result in impact to procurement due to the inability 
to execute multi-year contracts, achieve quantity increases, and 
commence new start programs.
    As the Budget Control Act reductions take place in FY13, the near 
term effects of a CR are more critical and the Departments seeks 
approval of the FY12 appropriations before January, 2012.

    Mr. Forbes. What impact to training (i.e. training miles, flying 
hours, training ammo, spares, etc.) will the Budget Control Act have? 
How would sequestration affect this important component of readiness?
    General Dunford. The full impact of the Budget Control Act and 
subsequent sequestration increase risk and degrade our ability to 
maintain readiness. Fiscal reductions will not be focused in any one 
single category of Marine Corps funds; spending reductions will likely 
span each of the Marine Corps accounts: manpower, operations and 
maintenance, and investment. A reduction in funding to any one or all 
of these accounts will have a negative impact on readiness.

        <bullet>  Manpower: Unless demand for Marine Operations 
        declines proportionately, lower investment in manpower 
        translates to fewer marines. If fewer units are available to 
        respond when needed, dwell times between deployments for 
        marines will shrink. Less dwell time between deployments means 
        less time to train, maintain equipment, and increases stress on 
        marines and families, ultimately placing at risk the all-
        volunteer force.

        <bullet>  Operations & Maintenance: A reduction in funding to 
        the operations and maintenance account will degrade Marine 
        Corps training at every level, from the small-unit to the large 
        scale Marine Air Ground Task Force (MAGTF). In addition, 
        forward-deployed training with partner nations and allies will 
        be reduced.

        <bullet>  Investment: Reducing the investment account causes 
        our equipment to age more quickly that it can be replaced or 
        refurbished. This not only increases the operations & 
        maintenance funding required, but eventually causes a gap when 
        the equipment cannot be maintained at required readiness 
        levels, at required quantities, or the equipment becomes 
        technologically obsolete. It ultimately places modernization at 
        risk and negatively affects our ability to incorporate 
        innovative technologies and warfighting capabilities.
    Mr. Forbes. If sequestration severely degraded our depot 
maintenance capability, how would that impact your ability to 
successfully prosecute your mission as it stands today?
    General Dunford. If sequestration occurs, the Marine Corps will 
have to make difficult choices about the allocation of funding in all 
accounts--including depot maintenance. The Marine Corps relies on our 
depot maintenance facilities and providers to rebuild equipment marines 
have worn out over the last decade, in both combat/stability operations 
overseas and home station training. Our depot maintenance providers 
will be critical as we bring equipment back from theater and then rely 
on it to return units to their prewar readiness levels. Sequestration 
will create additional risks to the Marine Corps mission as America's 
``Force in Readiness.'' The Commandant has made clear that the Marine 
Corps will ask only for what is required to prosecute our mission 
successfully, and depot maintenance funding is a requirement.
    Mr. Forbes. If sequestration were to occur, my understanding is 
that every discretionary account would be cut equally. What are the 
repercussions of a cut of such a large magnitude and indiscriminate 
nature? How does it affect the All-Volunteer Force?
    General Dunford. Large, across-the-board cuts to our budget harm 
the Marine Corps and the Joint Force we leverage for success in crises. 
Marines serve our Nation by leveraging a frugal blend of joint 
capabilities, especially lift, acquisition, and logistical support. We 
maintain a very lean organizational structure with significantly lower 
overhead than the other Services while generating the highest tooth-to-
tail ratio in DOD. We have fewer General Officers and the smallest 
percentage of civilian employees when compared to our sister Services. 
In our all-volunteer force, Manpower comprises 60% of our Total 
Obligation Authority, the largest percentage among the Services. Given 
this already lean force, a cut applied equally to the Marine Corps 
removes a disproportionate amount of operational capability from the 
Nation's Expeditionary force in readiness.
    Mr. Forbes. Since the FY11 budget submission, the Department has 
seen its budget erode through H.R. 1, the ``Budget Control Act,'' the 
$178 billion efficiencies initiative, and most recently, OMB guidance 
for FY2013 that holds spending at FY2010 levels. Many would argue that 
the military has already done its share for deficit reduction. Do you 
agree with that assessment? Should DOD be immune from further cuts?
    General Dunford. The Marine Corps is fully aware of the fiscal 
challenges facing our Nation and will remain faithful stewards of 
funding that we receive. Over the past two years, the Marine Corps has 
aggressively sought and found efficiencies in how we spend our scarce 
resources. These efficiencies have created a lean Marine Corps that 
remains capable of serving as America's ``Force in Readiness''. 
However, further cuts significantly increase readiness risk and will 
further challenge our efforts to train and equip marines. As Congress 
moves forward with the difficult fiscal challenges ahead, the Marine 
Corps remains committed to its tradition of frugality. Additional 
indiscriminate funding cuts beyond those already imposed will have a 
devastating impact on the Marine Corps ability to meet known 
warfighting requirements.
    Mr. Forbes. How would a long-term CR further exacerbate the cuts 
prescribed under the Budget Control Act?
    General Dunford. The Marine Corps is fully aware of the fiscal 
challenges facing our Nation. Under a Continuing Resolution (CR), OSD 
policy requires the Services to manage funds at the line item or 
program level vice at the appropriation level, thereby limiting 
flexibility to reallocate funds to higher priority requirements 
requested in the pending appropriations legislation. New starts and 
military construction cannot be initiated under a CR without specific 
approval; and individual projects must be specifically authorized and 
appropriated.
    The impacts of a long-term CR are manageable at the beginning of 
the fiscal year but grow dramatically as the year continues. A CR 
extended beyond the end of the calendar year creates an unmanageable 
shortfall in the Marine Corps manpower account. While the Marine Corps 
can mitigate some of this manpower shortfall through management 
actions, a significant reprogramming action will require offsetting 
resources from other critical accounts (investment or operations and 
maintenance) which are already reduced to minimum levels, and create 
challenges for equipment levels, training readiness, and our marines' 
quality of life until there is a final appropriations bill.

    Mr. Forbes. Gen. Breedlove, you have mentioned on several occasions 
that the Air Force will likely have an enduring mission in CENTCOM 
after our troops leave Afghanistan and Iraq. Similarly, you have been 
called upon to support a host of other operations in support of NATO in 
Libya and humanitarian lift in South America and Asia. Will the Air 
Force be able to meet all these commitments in the future with the cuts 
contained in the Budget Control Act or under sequestration? Will we be 
forced to make tradeoffs supporting important mission like Air 
Sovereignty Alert and support for the other combatant commanders?
    General Breedlove. The Air Force has accepted increased risk to the 
total force in order to maximize support to the geographic commanders. 
As demands for our assets increase, the Air Force has capability areas 
that are rotating at or near one to one dwell. To mitigate our 
personnel readiness concerns, the Air Force uses a modified deployment 
construct to account for surge and to capture actual risk levels. To 
continue to meet geographic commanders' taskings, through the Global 
Force Management process, the Air Force will provide capabilities to 
meet the demand. As budget reductions take effect driving the Air Force 
to a smaller force, we will have to re-examine our capabilities and 
determine what we would no longer be able to provide the joint team. 
Sequestration could require the Air Force to stop performing lesser 
priority tasks and redirect resources in order to ensure we preserve 
readiness in core functions. The Air Force will meet Aerospace Control 
Alert (new terminology for ``Air Sovereignty Alert'') mission and other 
missions with trained, ready, and capable airpower with a balanced 
approach across the total force.
    Mr. Forbes. In July you mentioned that the Air Force had the oldest 
fleet in its history. Given that the Air Force has been challenged in 
recent years to keep backlogged aircraft maintenance low and mission 
capable rates up, even as OPTEMPO remains high, how does the Air Force 
intend to keep platforms going beyond their expected service life in 
this constrained budgetary environment?
    General Breedlove. The Air Force remains focused on maximizing 
aircraft service life through a number of formalized fleet health 
sustainment programs. Most platforms leverage proactive integrity 
programs, such as the Aircraft Structural Integrity Program, in which 
areas such as airframe strength, durability, damage tolerance, 
corrosion control, and material defects are closely managed. 
Additionally, avionics modernization programs focus on continuous 
avionics and software systems upgrades to capitalize on emerging 
technology to address diminishing manufacturing sources and retain 
capability in dynamic threat environments. Furthermore, many platforms 
undergo formal Service Life Extension Programs in which structural, 
propulsion, avionics, and mechanical subsystems are extended and/or 
upgraded. Also, the Air Force utilizes the Fleet Viability Board to 
provide the Secretary of the Air Force/Chief of Staff of the Air Force 
with technical assessments of aging Air Force fleets, leading to 
sustainment or retirement decisions. Lastly, the Air Force Scientific 
Advisory Board promotes the exchange of the latest scientific and 
technical information to enhance the accomplishment of the Air Force 
mission. These proven programs are critical to ensuring continued 
airworthiness for service life extensions. Adequate funding will ensure 
supply chains, maintenance operations, and flying operations avoid 
further stress, which could negatively impact war readiness engine 
levels, aircraft availability, and mission readiness. However, even if 
all those programs are funded robustly, the Air Force legacy platforms 
continue to be operated with increased risk due to a variety of 
``unknowns'' associated with the oldest fleet in Air Force history.
    Mr. Forbes. Gen. Breedlove, the Air Force has already had to reduce 
its flying hour training program and is currently reexamining its mix 
of live and virtual training, including opportunities to rely more on 
the use of simulators. How will the Budget Control Act and 
sequestration impact this vital component of individual and unit 
readiness?
    General Breedlove. The Air Force will continue to leverage critical 
live fly training with increasingly capable virtual training devices 
and simulators. The Air Force continually reassesses the mix between 
live fly and virtual training to strike the right balance. As simulator 
technology and fidelity improve, training methods and simulator 
capabilities are assessed to ensure requirements are met as efficiently 
and effectively as possible. The Air Force has already shifted a 
significant amount of live fly training into our simulators. Reductions 
in flying hours require investments in infrastructure and training 
system upgrades and procurement. Unit commanders assess unit readiness 
on a monthly basis via the Status of Resources and Training System 
(SORTS) and the Defense Readiness Reporting System (DRRS). Unit 
training programs track Individual readiness. Any negative training 
impact to Air Force operational readiness would be reported and tracked 
through those reporting systems. During these fiscally constrained 
times, the Air Force will balance our resources to meet our priorities 
with our total force. As budget reductions take effect driving the Air 
Force to a smaller force, we will have to re-examine our capabilities 
and determine what we would no longer be able to provide the joint 
team. Sequestration could require the Air Force to stop performing 
lesser priority tasks and redirect resources in order to ensure we 
preserve readiness in core functions.
    Mr. Forbes. Gen. Breedlove, there have been several press reports 
calling into question the viability of the current and future bomber 
fleet in this challenging budgetary environment. How vital is our 
bomber fleet to current mission requirements? What level of risk would 
we be accepting if we divest ourselves of our bomber capability?
    General Breedlove. A viable and capable conventional force is 
critical to the shaping, deterrence, seizing the initiative, and 
dominate phases of military operations. Our current and future bomber 
force is vital in each of these phases. Long range bombers provide the 
Joint Force Commander with unique capabilities to assure allies and 
persuade potential adversaries in a deliberate and controlled manner. 
In deterrence operations, bombers offer unique attributes: they are 
survivable and responsive when generated, inherently able to signal 
resolve, and critical to extended deterrence and assurance. Should 
shaping and deterrence efforts fail, the bomber force is especially 
capable of quickly seizing the initiative in a joint operation. 
Examples of this are the beginning air strikes in OPERATION IRAQI 
FREEDOM flown by B-1s, B-2s, and B-52s and, more recently, the first 
air strikes flown by B-2s in Libya, OPERATION ODYSSEY DAWN. 
Contributions of the bomber force in the dominate phase of operations 
is unparalleled due to the persistency, range, and payload of the 
bomber force. In OPERATION ALLIED FORCE, B-2s flew less than one 
percent of the sorties but dropped 11 percent of the bombs. In OIF/OEF, 
B-1s have flown five percent of the sorties and account for 40 percent 
of the bombs delivered. Under the Budget Control Act, the Air Force may 
have to incur greater risk to our warfighting strategy by reducing 
bomber force structure and modernization programs. Should sequestration 
occur, the Air Force would be forced to take even more risks within the 
bomber force. This could result in a much higher campaign consequences 
such as higher Coalition losses and longer campaign timelines.
    Mr. Forbes. What impact to training (i.e. training miles, flying 
hours, training ammo, spares, etc.) will the Budget Control Act have? 
How would sequestration affect this important component of readiness?
    General Breedlove. Further reductions driven by the Budget Control 
Act would require an enterprise-wide review of all resources and the 
potential elimination of training for lower priority missions and 
capabilities. The Air Force will continue to leverage critical live fly 
training with virtual training devices and simulators to ensure our 
force meets requirements as efficiently and effectively as possible.
    As budget reductions take effect driving the Air Force to a smaller 
force, we will have to re-examine our capabilities and determine what 
we would no longer be able to provide the joint team. Sequestration 
could require the Air Force to stop performing lesser priority tasks 
and redirect resources in order to ensure we preserve readiness in core 
functions. The impacts of sequestration will not produce an across the 
board reduction in readiness. The Air Force must assess the risks then 
balance available funds among force structure, readiness, and 
modernization accounts to deliver trained, ready, and capable airpower 
for the highest priority mission areas.
    Mr. Forbes. If sequestration severely degraded our depot 
maintenance capability, how would that impact your ability to 
successfully prosecute your mission as it stands today?
    General Breedlove. In a sequestration environment, the Air Force 
would need to make sustainment and modernization decisions to optimize 
readiness. The Air Force would identify maintenance to defer based upon 
capability priorities in line with Department of Defense strategies and 
guidance. The impact of this deferred maintenance would likely be to 
reduce the size and flexibility of our industrial base, to include the 
three organic depots. The Air Force would make a more precise 
assessment of impacts to mission accomplishment upon our receipt and 
analysis of a funding status on force structure changes, flying hour 
distribution, and prioritized distribution of sustainment funds. 
Effective management of force structure and depot maintenance 
requirements would be key components in maintaining maximum possible 
mission readiness. Presently, the Air Force has not deferred any 
required depot maintenance.
    Mr. Forbes. If sequestration were to occur, my understanding is 
that every discretionary account would be cut equally. What are the 
repercussions of a cut of such a large magnitude and indiscriminate 
nature? How does it affect the All-Volunteer Force?
    General Breedlove. Sequestration would drive an additional 
reduction above the first phase of the Budget Control Act reductions to 
the Air Force FY13 budget request. Additional programs would need to be 
restructured, reduced, and/or terminated. All investment accounts would 
be impacted including our high-priority Acquisition Category I 
modernization efforts such as MQ-9, Joint Strike Fighter, and KC-46A. 
Sequestration would drive potential internal realignment and loss or 
de-scoping of military construction projects. The Air Force would need 
to implement actions to the operations & maintenance appropriation such 
as reductions to flying hours and weapon system sustainment; curtail 
training; slowdown civilian hiring and implement potential furloughs or 
reductions in forces; reduce daily operations to emphasize mission 
critical operations (i.e. training, supplies, equipment); and defer/
stop infrastructure investments and mission bed downs. Absorbing these 
reductions would drive readiness impacts, potentially ``hollowing out'' 
the force while making our ability to cover any emergent execution year 
requirements (i.e., fuel price increase or Libya operations) extremely 
difficult.
    Sequestration would undoubtedly have negative long-term effects on 
the all-volunteer force, which will ultimately diminish the Air Force's 
ability to recruit and retain the best Airmen. Recruiting funds would 
be reduced, resulting in less contact with potential Airmen and limited 
recruitment opportunities. Top talent would be increasingly influenced 
to seek opportunities in the private sector. Reductions in training 
resources would reduce agility and make it more difficult for the Air 
Force to shape the force into the remaining and emerging mission areas. 
Civilian workforce reductions would need to occur, putting increased 
demand and responsibility on a shrinking force. When the economy 
recovers, the Air Force's ability to retain experienced Airmen would 
become increasingly difficult.
    The President has indicated that he would exempt the military 
personnel appropriation from sequestration meaning that larger 
reductions would be required in other areas. Programmatic decisions 
could ultimately drive associated changes in authorized end strength. 
However, it is not possible to determine the specific manpower impacts 
until a corporate strategy is developed.
    Mr. Forbes. Since the FY11 budget submission, the Department has 
seen its budget erode through H.R. 1, the ``Budget Control Act,'' the 
$178 billion efficiencies initiative, and most recently, OMB guidance 
for FY2013 that holds spending at FY2010 levels. Many would argue that 
the military has already done its share for deficit reduction. Do you 
agree with that assessment? Should DOD be immune from further cuts?
    General Breedlove. The Department of Defense has proactively 
pursued a budget reduction/efficiencies strategy and the Air Force has 
taken its share of reductions over the past few years. As the 
Administration moves forward to reduce the deficit, no one will be 
immune from further cuts. However, any further cuts should be based on 
reductions in force structure or mission changes. Reductions without 
programmatic content should be avoided.
    Mr. Forbes. How would a long-term CR further exacerbate the cuts 
prescribed under the Budget Control Act?
    General Breedlove. A long-term Continuing Resolution (CR) would 
create significant impacts within the investment, Military Construction 
(MILCON), and Operation and Maintenance (O&M) appropriations. For the 
Military Personnel (MILPERS) appropriation, a long-term CR would not 
drive significant issues as long as Congress authorizes the military 
pay raise and other incentive authorities on 1 January 2012 and an 
appropriation is received before the last payroll of the fiscal year.
    A long-term CR would drive potential breaks in contracts or delays 
in production, forcing a major restructuring of Air Force acquisition 
programs. Without specific authority, MILCON projects cannot be awarded 
and would drive inefficient management and workarounds. For O&M, a 
long-term CR would drive inefficient management of contracts which 
drives additional workload to process various contract modifications 
for each CR period. It also decreases the Air Force ability to make 
strategic decisions to properly fund Air Force missions. To stay within 
CR limits, the Air Force would need to defer infrastructure and mission 
bed downs, continue hiring slow downs, reduce daily operations such as 
travel, training supplies and equipment along with applying reductions 
to aircrew training and weapon system sustainment. In addition, 
covering unplanned execution year bills such as fuel price increases or 
cash flowing Libya or similar operations would further reduce O&M 
flexibility. A long-term CR bow waves requirements into out-years with 
ripple effects into the POM. Programs that were scheduled to start or 
increased quantities in FY12 would not be allowed to go forward without 
specific Congressional language and would impact programs scheduled for 
FY13.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. ROGERS
    Mr. Rogers. The Stryker vehicle has grown considerably in weight 
and size over the last decade with the addition of valuable capability 
enhancements and protection to support its mission. The addition of 
Slat armor for RPG protection when first installed added nearly 6,000 
pounds and 36 inches of width to the vehicle. This increased weight and 
size has significantly impacted the initial mobility of the platform. 
My question revolves around what has the Army done to reduce the weight 
of the vehicle to recapture this mobility? I understand that 
improvements to the slat armor reduce that kit weight to 3500 pounds 
several years ago but net-based improvements in RPG protection since 
then have not only increased the protection level but have reduced the 
kit weight to around 1100 pounds. Are these net-based RPG protection 
kits being installed and deployed on the Strykers today and if not, why 
are we not capitalizing on this enhanced protection and significant 
weight reduction?
    General Chiarelli. The net-based Rocket Propelled Grenade (RPG) 
protection kits are not being installed and deployed on Strykers today. 
The Capabilities and Limitations Report published in October 2011 by 
the Army Test and Evaluation Command states that the net-based RPG 
protection kits provide less protection than Slat Armor. The Project 
Management Office for the Stryker Brigade Combat Team has questioned 
this finding and is requesting additional information from the Army 
Evaluation Center to determine what test data this assessment was based 
on, and to assess if additional testing is required to do a more 
rigorous comparison between the two protection kits. This effort is in 
the initial stages and it is too soon to establish the number and type 
of tests required. This data is needed to complete a detailed schedule 
for the assessment. Most importantly, I assure you and the American 
people that we will make the right decision that provides our Soldiers 
the very best protection possible.
                                 ______
                                 
                    QUESTION SUBMITTED BY MRS. ROBY
    Mrs. Robey. In working with the bases in my state, I understand the 
Army has a goal to have a joint multi-role aircraft for rotary wing 
transport on the books by 2030. The concern is that emphasis has been 
placed on modernizing our current rotary wing fleet and we may have 
lost sight on moving to a new platform. Current platforms are going 
limited even with modernization in several areas that we must move 
forward including: need crafts to go faster than 200 knots, reducing 
logistic footprint and reduce fuel consumption. With all of the 
concerns of what the action of Joint Select Committee on Deficit 
Reduction will have on DOD appropriations, what will the possible 
reduction in appropriations do in impacting that deadline?
    General Chiarelli. Reductions in appropriations for the Department 
of Defense could delay the development of technologies that could be 
applicable to the Joint Multi-Role Aircraft (JMR). Stable funding is 
key to developing and maturing these required technologies.
    The Army fully intends to continue to pursue development of the JMR 
in an attempt to fill capability gaps that cannot be addressed now 
because current technologies are either infeasible or too immature. 
These capability gaps are in the areas of survivability, lethality, 
performance, maintainability, supportability, flexibility, and 
versatility. Development of the JMR will lead to common aircraft 
components that will be scalable in size and will provide a common 
aircraft architecture that will support mission-specific equipment 
packages to meet future vertical lift requirements.
    While the Army pursues the development of the JMR, it must also 
continue with modernization efforts on current platforms to ensure that 
Army aviation units are modular, capable, lethal, tailorable, and 
sustainable. These modernization efforts mitigate capability gaps until 
the JMR technologies mature.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
